<html>
<title> - DISSIDENTS WHO HAVE SUFFERED FOR HUMAN RIGHTS IN CHINA: A LOOK BACK AND A LOOK FORWARD</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


DISSIDENTS WHO HAVE SUFFERED FOR HUMAN RIGHTS IN CHINA: A LOOK BACK AND 
                            A LOOK FORWARD
=======================================================================

                                 HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 7, 2016

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 


         Available via the World Wide Web: http://www.cecc.gov
         
                              ____________
                              
                              
                     U.S. GOVERNMENT PUBLISHING OFFICE                     
23-081 PDF                  WASHINGTON : 2017                     
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385f4857785b4d4b4c505d5448165b575516">[email&#160;protected]</a>  






              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRIS SMITH, New Jersey, Chairman    MARCO RUBIO, Florida, Cochairman
ROBERT PITTENGER, North Carolina     TOM COTTON, Arkansas
TRENT FRANKS, Arizona                STEVE DAINES, Montana
RANDY HULTGREN, Illinois             JAMES LANKFORD, Oklahoma
DIANE BLACK, Tennessee               BEN SASSE, Nebraska
TIM WALZ, Minnesota                  DIANNE FEINSTEIN, California
MARCY KAPTUR, Ohio                   JEFF MERKLEY, Oregon
MICHAEL HONDA, California            GARY PETERS, Michigan
TED LIEU, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                             
                             
                             
                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative From New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
  Cochairman, Congressional-Executive Commission on China........     3
Statement of Hon. Randy Hultgren, a U.S. Representative From 
  Illinois;......................................................     5
Tsering, Penpa, Representative of His Holiness the Dalai Lama, 
  Office of Tibet, Washington, DC................................     8
Yang Jianli, Initiatives for China/Citizen Power for China.......    10
Chen Guangcheng, Chinese Legal Advocate; Distiguished Visiting 
  Fellow, Institute for Policy Research and Catholic Studies, 
  Catholic University of America.................................    12
Fu, Bob, Founder and President, ChinaAid Association.............    14
Wei Jingsheng, Chairman, Overseas Chinese Democracy Coalition....    16
Kadeer, Rebiya, President, World Uyghur Congress.................    18
Wang, Xiaodan, Falun Gong practitioner and daughter of former 
  political prisoner Wang Zhiwen.................................    20

                                APPENDIX
                          Prepared Statements

Tsering, Penpa...................................................    32
Yang Jianli......................................................    42
Chen Guangcheng..................................................    51
Statement submitted by the 709 Lawyers Wives, dated December 5, 
  2016...........................................................    53
Fu, Bob..........................................................    55
Wei Jingsheng....................................................    59
Kadeer, Rebiya...................................................    60
Wang, Xiaodan....................................................    62

.................................................................

Smith, Hon. Christopher, a U.S. Representative From New Jersey; 
  Chairman, Congressional-Executive Commission on China..........    67
Rubio, Hon. Marco, a U.S. Senator From Florida; Cochairman, 
  Congressional-Executive Commission on China....................    68

                       Submissions for the Record

Statement Submitted for the Record by Enghebatu Togochog, of the 
  Southern Mongolian Human Rights Information Center (SMHRIC), 
  dated December 7, 2016.........................................    70
Letter to Cui Tiankai, the Ambassador of the People's Republic of 
  China to the United States from Representative Christopher 
  Smith and Senator Marco Rubio, dated December 7, 2016..........    73

Witness Biographies..............................................    75

 
DISSIDENTS WHO HAVE SUFFERED FOR HUMAN RIGHTS IN CHINA: A LOOK BACK AND 
                             A LOOK FORWARD

                              ----------                              


                      WEDNESDAY, DECEMBER 7, 2016

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:11 p.m., 
in Room HVC-210, Capitol Visitor Center, Hon. Christopher 
Smith, Chairman, presiding.
    Also Present: Senator Rubio and Representatives Walz and 
Hultgren.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. The Commission will come to order. Let me, 
first of all, say I am sorry for the lateness. There is a 
series of votes on the House floor. We just finished, so other 
Members should be streaming in.
    Senator Marco Rubio and the other Senators also have a vote 
right now. So you never plan these things. I want to thank you 
for your patience, forbearance.
    This has been another dark and difficult year for Chinese 
rights defenders and democracy activists and nobody knows that 
better than our distinguished witnesses at this table who have 
lived and suffered for their beliefs, for their convictions, 
and now others in like manner are suffering today in China. 
Under President Xi Jinping's version of the rule of law, the 
law is being used to more effectively curb freedom of 
expression, civil society, religious freedom, the forced 
abortion policy, and other fundamental rights.
    Chinese courts have convicted rights activists and lawyers 
of ``subversion of power'' for simply seeking to represent 
religious groups, petitioners, and democracy activists. China's 
diverse religious communities, faced with even more 
restrictions, as new regulations, and ``sinicization'' campaign 
continues, will further politicize religious life and it leads 
to more repression.
    In Hong Kong, mainland China's political interference and 
its abduction of booksellers threatens the rule of law and Hong 
Kong's promised autonomy, contributing to a growing climate of 
fear and insecurity. Internationally, China continues to push a 
relativistic vision and version of human rights, characterizing 
universal values as ``Western'' values that do not apply to the 
Chinese national situation. Even though what we espouse here 
and what others are pushing both within and from without China 
are all based on the Universal Declaration of Human Rights to 
which China and others have acceded to.
    The next Administration faces major challenges in dealing 
with China. A new approach is needed that learns the lessons of 
the past and listens to those who have suffered prison and 
persecution to advance fundamental freedoms in China. The 
problem is that U.S. diplomacy is stuck with policies that no 
longer match--and maybe never did match--Chinese realities.
    For the past two decades--or a little more than that--U.S. 
policy was based on the belief that China's growing prosperity 
would somehow bring political reforms and the rule of law; that 
trade matriculates into fundamental freedoms. Many of us argued 
from the beginning, including me and I am not the only one, 
going back to 1994, that it was a mistake when President Bill 
Clinton delinked most-favored-nation status with human rights, 
and by doing so said that profits trump fundamental freedoms 
and fundamental rights.
    That was the beginning in my opinion. The Chinese took the 
measure of the United States and said they care more about 
money than they do about values. But that is not the case, 
certainly on this Commission, and that is a bipartisan belief 
that we have.
    During those times, we focused on integrating China into 
the international system, ignoring clear evidence that China, 
under the Communist Party's leadership, would play by its own 
rules.
    China has not become a ``responsible stakeholder'' in the 
international system as predicted. I would note parenthetically 
that I also chair the Africa, Global Health, Global Human 
Rights subcommittee; frequently travel to Africa and other 
parts of the world on human rights missions, and I could tell 
you the bad governance model that they promulgate is being 
accepted by certain autocratic governments, if not 
dictatorships, on those continents. So they are not acting as a 
responsible stakeholder.
    To the contrary, despite decades of remarkable economic 
growth, Beijing's leaders are increasingly dismissive of 
``Western influence'' and outright hostile to both free 
societies and democratic capitalism.
    A strategy of engagement through trade, investment, and 
people-to-people exchanges has not lead to a freer China and 
remains cold comfort to China's repressed human rights lawyers, 
religious and ethnic minority groups, journalists, and civil 
society leaders. The United States must recognize that China's 
internal repression drives its external aggression and develop 
new policy approaches that intertwine our principles and 
interests in the pivotal Asia-Pacific region.
    Working with the Congress, the next Administration should 
be prepared to bolster U.S. strategic advantages in the Asia-
Pacific region. This will mean improving military readiness, 
insisting on a freer and fairer trade, strengthening relations 
with regional partners, and making more robust commitments to 
advancing democratic institutions, human rights, and the rule 
of law.
    This last point will require the United States to push 
China to embrace greater transparency and a better adherence to 
universal standards. It will require the next Administration to 
shine a bright light on human rights abuses and level 
meaningful sanctions in response to these abuses which I say 
with great sadness, that this Administration, the Obama 
Administration, has not done for the last eight years. The 
United States must also find ways to support China's reformers, 
their dissidents, and its champions of liberty and the rule of 
law.
    The bipartisan Congressional-Executive Commission on China 
[CECC], which Senator Rubio and I cochair, recently issued its 
2016 Annual Report with specific recommendations for ways to 
pursue human rights and the rule of law within U.S.-China 
relations.
    This report is the ``gold standard'' of human rights 
reports on China. I want to publicly commend the CECC staff for 
their Herculean efforts in producing this important report. It 
is a big task and we appreciate their hard work. The report 
should be required reading for Members of Congress interested 
in things related to China, journalists writing on China, and 
for Administration officials looking to develop strategies to 
engage with China.
    The need for a principled and consistent American 
leadership is more important than ever, as China's growing 
economic clout, and persistent diplomatic efforts, have 
succeeded in dampening global criticism of its escalating 
repression and failures to adhere to universal standards. We 
owe a new approach to the great people like Liu Xiaobo, who 
continues as a Noble Peace Prize winner to sit in prison, 
people like Gao Zhisheng, and the thousands of others suffering 
as prisoners of conscience.
    Now, we owe it to future generations of Americans, whose 
security and prosperity will depend on a U.S.-China 
relationship that is open and transparent, free of censorship 
and persecution, based on adherence to universal standards, 
and, hopefully, increasingly democratic.
    It is my honor to turn to Cochair Senator Marco Rubio.

  STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM FLORIDA; 
    COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Cochairman Rubio. Thank you, Mr. Chairman, and I want to 
thank all of the witnesses gathered here today. This is an 
impressive group of men and women who have important stories to 
share about their own personal suffering and that of their 
family members and associates at the hands of both the Chinese 
Government and the Chinese Communist Party.
    Their experiences must not be viewed in isolation, but 
rather they are representative of untold numbers of other 
Chinese, Tibetans, and Uyghurs who daily face repression at the 
hands of their own government.
    Today I joined our Chairman, Representative Smith, in 
sending a letter to the Chinese Ambassador to raise our concern 
and seek additional information about a spate of detentions 
involving prominent Chinese human rights advocates, as well 
American citizen Sandy Phan-Gillis who has been arbitrarily 
detained for 21 months now. I submit a copy of that 
correspondence for the record.
    Before going any further, I would also like to take a 
moment at this hearing, the last CECC hearing of the 114th 
Congress, to recognize Chairman Smith for his capable and 
principled leadership of the Commission. He is an unrelenting 
advocate for human rights and rule of law everywhere in the 
world, especially in China, and I look forward to continuing to 
partner with him in the new Congress, because as today's 
testimony will no doubt make clear, the mandate and the mission 
of this Commission remains as vital as ever.
    The Commission, as you just heard a moment ago, recently 
released its Annual Report and it painted an undeniably bleak 
picture regarding the deterioration of human rights and the 
rule of law in China, with especially grave consequences for 
civil society, religious believers, human rights lawyers, and 
labor activists. Since the Report's release in October of this 
year, those abuses have continued apace in the last two months.
    As the Report documents and as news stories from the last 
several weeks underscore, Beijing has become increasingly 
brazen in exerting its extraterritorial reach. This was 
especially true in the outrageous abductions of the Hong Kong 
booksellers last year, including Swedish national Gui Minhai, 
who is still being held by Chinese authorities at an 
undisclosed location.
    And now more recently in China's unprecedented intervention 
in Hong Kong's legal system in the cases surrounding two 
democratically elected politicians who won seats in the 
Legislative Council on platforms calling for democratic self-
determination for Hong Kong. The ripple effects of this ruling 
are not fully known yet as the Hong Kong Government has now 
taken additional steps targeting opposition lawmakers. This is 
gravely concerning and something which the Commission, and the 
Congress, will be watching closely in the coming year 
especially as it relates to the Hong Kong Policy Act.
    Returning to the focus of today's hearing, we are at a 
critical juncture in U.S.-China relations, and there is much 
wisdom to be gleaned, for the incoming administration, from 
dissident voices.
    December will mark 15 years since China gained entry into 
the World Trade Organization. It is past time to take stock of 
our approach and recognize that despite what proponents at the 
time believed would happen, China has in fact used the 
international rules-based system to fuel vast economic growth, 
while further restricting freedom and increasing repression.
    Quite simply, many of the principles which have undergirded 
U.S.-China relations during Democrat and Republican 
administrations alike in recent decades have simply not yielded 
the desired outcomes. A perennial critique from those who care 
about human rights issues has been that the U.S. foreign policy 
apparatus risks ghettoizing human rights concerns, only giving 
them the prominence they merit during infrequent, and often 
ineffective, human rights dialogues and then relegating these 
issues to the sidelines in high-level bilateral engagement.
    The Obama Administration struggled to integrate human 
rights issues at the highest levels sending unmistakable 
signals early on, as was famously reported during then 
Secretary Clinton's inaugural trip to China in 2009 that human 
rights issues, ``can't interfere with the global economic 
crisis, the global climate change crisis, and the security 
crisis.''
    Words have consequences. Mid-level appointees at the State 
Department and elsewhere take them to heart. As such, it will 
be critical, during the early days of the new administration, 
for the Secretary and other senior diplomats to put down 
markers on these issues which are of central importance not 
only to the Chinese people, but to U.S. national interests. For 
as history has shown us, where rule of law fails to take root, 
where human rights abuses are committed with impunity, where 
international obligations are violated, the United States 
should not expect to find a responsible global stakeholder.
    I look forward to hearing from our witnesses on this 
important topic. Today's hearing was scheduled to coincide with 
the commemoration of Human Rights Day this weekend, and also 
with the sixth anniversary of the awarding of the Nobel Peace 
Prize to Chinese dissident and writer Liu Xiaobo--an honor that 
he has not been able to rightfully claim given that still today 
he languishes unjustly in prison, serving an 11-year sentence 
handed down for his essays criticizing the Chinese Government.
    The United States must commit anew to standing with China's 
reformers and dissidents, embracing their aspirations and 
consistently pressing the Chinese Government and its Communist 
Party to respect basic human rights and uphold the rule of law. 
It is my hope that this new administration will appoint an 
ambassador to China that reflects these priorities, not simply 
someone that is going there to catch up with old friends.
    I look forward to today's testimony and to today's policy 
recommendations.
    Thank you, Mr. Chairman, and just as a note, the Senate is 
in the midst of a series of votes. I know it is shocking the 
Senate is voting today. I am going to take my second vote and 
try to get back here as quickly as possible. Thank you, 
Chairman.
    Chairman Smith. I want to thank the Cochair for his 
leadership over the last two years, and really over the 
entirety of his tenure in the U.S. Senate on behalf of human 
rights everywhere, including and especially in China. Next 
Congress, God willing, you will serve as Chair. The Commission 
could not be in better hands. You are just an extraordinary 
leader.
    I would like to now yield to Mr. Hultgren.
    [The letter appears in the appendix.]

 STATEMENT OF HON. RANDY HULTGREN, A U.S. REPRESENTATIVE FROM 
                            ILLINOIS

    Representative Hultgren. It is so good to be with all of 
you. I especially want to thank our wonderful Cochairmen, 
Congressman Smith and Senator Rubio, two people who could not 
be more passionate and more effective at fighting for the value 
of every single person, no matter where they are.
    As I look out in the audience, truly we are among heroes. I 
want to thank you. You have lived your lives fighting for 
freedom, fighting for those who are being persecuted, being 
imprisoned, and we are so grateful that through you, we are 
able to make sure that their voices are heard, that no one is 
forgotten, and that no country, or leader, or person is left 
unaccountable for unacceptable actions.
    So this is appropriate, certainly to look back on what has 
happened over the last few years, some successes, but also 
somethings that did not happen that should have happened, and 
to take that and to look forward to what can we do next. It is 
my commitment, along with the Cochairmen and other members of 
this Commission, to say that this is our responsibility.
    There is opportunity, I think, in a new year and a new 
administration to make sure that, again, no one is forgotten, 
no voice is left unheard. My hope, my prayer, my commitment is 
to do everything that I can to make sure that we have that kind 
of accountability and that we are holding other nations 
accountable; that we are doing all that we can to say that 
every person deserves to be treated with respect, with dignity, 
and with the ability to pursue their dreams, their religion, 
and their passions that is their right.
    So thank you. Thank you Chairman Smith. Thank you for your 
incredible work, and thank you all for being here today.
    Again, I appreciate the work that has been done, but even 
more so, looking forward to greater impact that we can have 
coming into the new year.
    Chairman Smith. Thank you, Randy, very much. Thank you for 
your leadership as well.
    I would like to invite to the witness table our other three 
panelists. We have seven extraordinary women and men who have 
stood up for human rights in China, most of whom have spent 
considerable time in prison on behalf of their core 
convictions, and belief in human rights and religious freedom.
    I would like to now begin introducing them one-by-one, and 
then invite you to present your testimony.
    We will begin with Mr. Penpa Tsering who is the 
Representative of the Office of Tibet in Washington, and a 
member of the Tibetan Parliament. During his student days, he 
served as the General Secretary of both the Tibetan Freedom 
Movement and Nigerian Tibet Friendship Association.
    Later, he served as General Secretary of the Central 
Executive Committee in Do-mey. He then worked as executive 
director of the Tibetan Parliamentary and Research Centre in 
New Delhi before being sworn in as the speaker of the 14th 
Tibetan Parliament in 2008. During the 15th Tibetan Parliament-
in-exile in 2011, he again held the speaker's post. So thank 
you, Mr. Speaker, for being here.
    We will then hear from Dr. Yang Jianli who is president of 
Initiatives for China/Citizen Power for China. Dr. Yang is a 
scholar and democracy activist internationally recognized for 
his efforts to promote democracy in China. He has been involved 
in the pro-
democracy movement in China since the 1980s and was forced to 
flee China in 1989 after the Tiananmen Square massacre.
    In 2002, Dr. Yang returned to China to support the labor 
movement and was imprisoned by Chinese authorities for alleged 
espionage and illegal entry. Following his release in 2007, he 
founded Initiatives for China, a non-governmental organization 
that promotes China's peaceful transition to democracy.
    We will then hear from Mr. Chen Guangecheng, a Chinese 
legal advocate and extraordinary activist. Mr. Chen is from 
rural China where he advocated on behalf of people with 
disabilities and exposed and challenged abuses of population 
control and defended women--as well as their children--from 
forced abortion and forced sterilization.
    Mr. Chen was imprisoned for his activism for four years, 
followed by an extra two years of extrajudicial confinement at 
his home. Chen Guangcheng escaped in 2012, in an escape that 
still defies imagination, how he was able to pull that off, 
then came to the United States with his family.
    In addition to his position as a distinguished visiting 
fellow in the Institute for Policy Research and Catholic 
Studies at Catholic University, Mr. Chen is a senior 
distinguished fellow in human rights at the Witherspoon 
Institute, and also advisor to the Lantos Foundation for Human 
Rights and Justice.
    This Commission, parenthetically, had four hearings on his 
behalf during that crisis. We are so glad he is free today.
    We will then hear from Pastor Bob Fu who was a leader in 
the 1989 democracy movement in Tiananmen Square and later 
became a house church pastor. In 1996, authorities arrested and 
imprisoned Pastor Fu and his wife for their work.
    After their release, they escaped to the United States, and 
in 2002, he founded ChinaAid Association. ChinaAid monitors and 
reports on religious freedom in China and provides a forum for 
discussions among experts in religion, law, and human rights.
    Pastor Fu is frequently interviewed by media outlets around 
the world, has been before the European Parliament and the 
United Nations, and has been a particularly effective advisor 
to me and others, especially during Chen Guangeheng's crisis, 
but also on religious freedom. When Frank Wolf and I made our 
way on one of many trips to China, right before the Olympics in 
this case, we were in constant contact with Bob Fu as to which 
house pastors we might be able to meet with. So again, I want 
to thank him for his counsel and insight then.
    Then we will hear from Wei Jingsheng, a longtime leader of 
the opposition against the Chinese Government dictatorship. He 
was sentenced to jail twice for a total of more than 18 years 
due to his democracy activism, including a groundbreaking and 
well-publicized essay he wrote in 1978, ``The Fifth 
Modernization: Democracy.''
    After his exile to the United States in 1997--and I 
remember meeting him in Beijing when he was let out--one time, 
he was such a high-value political prisoner that the Chinese 
dictatorship thought that if they let out one man to get the 
Olympics for Beijing--this was the one that was held later on, 
this would have been Olympics 2000--they let Wei Jingsheng out. 
Then when the Olympics did not go their way, they rearrested 
him and tortured him.
    He is an incredible, incredible man, president of both the 
Wei Jingsheng Foundation and the Asia Democracy Alliance. I 
remember meeting with him during that short respite when he was 
out of prison in Beijing, and he told me--and I tell everybody 
that I can ever meet with, particularly on this Commission, 
that one of his pieces of advice to us was that when you 
kowtow, when you placate, and treat with weakness the 
dictatorship in China, they beat the prisoners more. But when 
you are predictable, and tough, and transparent, and lay down 
clearly what you want to accomplish as a U.S. Government or 
Western power, they then respond and they beat the prisoners 
less.
    We will then hear from Rebiya Kadeer who is a prominent 
human rights advocate and leader of the Uyghur people. She is 
the mother of 11 children. She spent six years in a Chinese 
prison for standing up to the authoritarian Chinese Government.
    Before her arrest in 1999, she was a well-known Uyghur 
businesswoman. Ms. Kadeer has been actively campaigning for 
human rights for the Uyghur people since her release from 
prison in 2005.
    She has been nominated for the Nobel Peace Prize several 
times. Despite Chinese Government efforts to discredit her, 
Rebiya Kadeer remains a pro-democracy Uyghur leader and heads 
the World Uyghur Congress, which represents the collective 
interest of Uyghurs around the world.
    We will then hear from Danielle Wang, who was born in 
Beijing. Danielle Wang began practicing the exercise of 
meditation known as Falun Gong in her youth with her father, 
Wang Zhiwen.
    In 1998, she moved to America for her studies. The 
following year, the Chinese Communist Party began its 
persecution of the Falun Gong practitioners. This put her 
father in prison and set her on a path for calling for help in 
the hopes of rescuing him for the next 17 years. He was 
released in 2014, but was denied exit from China when Danielle 
and her husband attempted to bring him to the United States in 
August 2016.
    A very, very incredible group of leaders. I would like to 
now turn to Mr. Tsering to begin the testimony.

STATEMENT OF PENPA TSERING, REPRESENTATIVE OF HIS HOLINESS THE 
          DALAI LAMA, OFFICE OF TIBET, WASHINGTON, DC

    Mr. Tsering. Thank you Chairman Smith, Senator Rubio, and 
Congressman Hultgren for providing me this opportunity. This is 
my first testimony before the Commission after assuming the 
responsibility of the Representative of His Holiness the Dalai 
Lama and the Central Tibetan Administration.
    I think this testimony is very timely because it is just 
before the International Human Rights Day, and also when you 
are going through a transition to a new administration at the 
helm of affairs in your country.
    Following the results of your presidential election, His 
Holiness the Dalai Lama has written both to President-elect 
Donald Trump and to Secretary Clinton and has expressed his 
wish to meet them. I am sure the President-elect and Secretary 
Clinton will meet with His Holiness as American presidents have 
done in the past.
    His Holiness the Dalai Lama and the Tibetan people are very 
concerned about the well-being of the Nobel Laureate, Liu 
Xiaobo, and demand his immediate release from incarceration.
    As I present the case of Tibet before you, we Tibetans 
stand with Chinese, Uyghur, and Falun Gong friends who are 
represented here and also our Southern Mongolian friends who 
are, unfortunately, not represented here. We all suffer the 
same fate under the repressive Communist Government of the 
People's Republic of China.
    While completely endorsing the findings and recommendations 
of the 2016 Annual Report of the Congressional-Executive 
Commission on China, I wish to briefly touch on the following 
points.
    Religious freedom. Having to seek the PRC Government's 
approval for recognition of reincarnated Lamas is the ultimate 
political tool to undermine existing Buddhist religious 
practices. Just as is the case of the Chinese appointed Panchen 
Lama, and even though the present Dalai Lama has not been 
included in the list of so-called living Buddhas, the Communist 
government wants to be responsible for the reincarnation of the 
14th Dalai Lama and they said it is an important issue 
concerning sovereignty and security of the nation.
    There are many cases, but the ongoing destruction of Larung 
Gar, the biggest center of Buddhists learnings, not only for 
Tibetans, but also to scores of Chinese and repatriation of 
thousands of monks and nuns from the center forced to pledge 
never, ever to return is a case in point as to how China views 
religious freedom in Tibet.
    Freedom of movement. Apart from the enormous restrictions 
on Tibetans to move from one part of Tibet to another, 
particularly into or out of Tibetan autonomous regions, 
Tibetans face tightening control to travel abroad. Tibetans who 
have obtained passports are being recalled. Tibetans who are 
already in India to receive the Kalachakra teachings from His 
Holiness the Dalai Lama in January 2017, have been ordered to 
return home before the end of December or face consequences. 
This includes denial of visas to Tibetan Americans to travel to 
Tibet.
    The use of counterterrorism as a tool to control Tibetans 
and branding allegiance to the Dalai Lama as separatists are 
the four things I want to outline.
    The diplomatic and political actions that have worked in 
the past:

        Number 1. Presidential meeting with His Holiness the 
        Dalai Lama.
        Number 2. Appointment and the role of Special 
        Coordinator for Tibet.
        Number 3. Hearings and reports of the Commissions.
        Number 4. Financial aid.
        Number 5. Bills and resolutions.
        Number 6. Congressional and State Department visits to 
        Tibet and Dharamsala.

    Suggestions to the new Administration and the Congress:

        Number 1. As an integral part of U.S. policy on China, 
        the United States should play a pivotal role in 
        highlighting the human rights situation in China, 
        Tibet, Xinjiang, and Southern Mongolia.
        Number 2. The United States should advocate for the 
        release of all political prisoners, including the 
        Panchen Lama and Liu Xiaobo.
        Number 3. The new Administration should implement U.S.-
        Tibetan Policy Act of 2002, including early appointment 
        of a senior level State Department Special Coordinator 
        for Tibet.
        Number 4. The Administration should impress on China 
        the need to establish a U.S. Consulate in Lhasa.
        Number 5. Preserve and increase economic, educational, 
        and humanitarian funding for Tibet, including radio 
        broadcasts.
        Number 6. The incoming president should meet with His 
        Holiness the Dalai Lama at the earliest opportunity in 
        keeping with precedence.
        Number 7. The Administration should monitor misuse of 
        counterterrorism in Tibet.
        Number 8. The Administration and the Congress should 
        urge the Chinese Government to resume dialogue with the 
        representative of His Holiness the Dalai Lama without 
        preconditions.
        Number 9. The Administration and the Congress should 
        emphasize to the Chinese leaders the need to teach in 
        the Tibetan language.
        Number 10. The Administration and the Congress should 
        raise discriminatory policies of the PRC toward 
        Tibetans in matters relating to religious freedom and 
        freedom of movement.
        Number 11. The Congress should support and adopt the 
        Reciprocal Access to Tibet Bill to promote access to 
        U.S. officials, journalists, and citizens into Tibet, 
        Uyghur, and other minority nationalities.
        Number 12. The Congress should organize more 
        bipartisan, bicameral visits to Tibet and Dharamsala.

    Thank you Chairman, Representative Chris Smith and Cochair, 
Senator Marco Rubio for the opportunity.
    Chairman Smith. Mr. Speaker, thank you so very much for 
your testimony and for your very specific recommendations, 
because all of this will be given to the next Administration. 
So thank you. This is a very important set of recommendations 
you have made.
    Dr. Yang?
    [The prepared statement of Mr. Tsering appears in the 
appendix.]

 STATEMENT OF YANG JIANLI, INITIATIVES FOR CHINA/CITIZEN POWER 
                           FOR CHINA

    Mr. Yang. Mr. Chairman, I want to first thank you for your 
leadership and your moral courage and--in speaking out on human 
rights--so consistently and persistently, even when it is not 
always easy or convenient to do so. Thank you so much, Mr. 
Chairman.
    By any standard, America's China policy has been a failure 
for the past three decades. The primary cause of the failure 
has been a fundamental misunderstanding of China's strategic 
objective, along with an inability on the part of the United 
States to respond to it with strategic and moral clarity.
    Regime security is the number one concern for China's 
Communist Party. It wants to maintain a permanent rule in 
China, replace Western capitalism with socialism with Chinese 
characteristics and substitute its so-called civilization in 
the place of democracy.
    The Trump Administration must take a different approach in 
dealing with the Chinese regime by returning to American values 
by focusing the foreign policy, then by striking directly at 
the vulnerable spots of the regime to enable a democratic 
transition. A democratic China will avoid inevitable conflict 
with the United States and assure a long-lasting peace in the 
region and in the world.
    I recommend the following specific actions for the next 
administration.

        Number 1. Use the U.S. market as leverage and threaten 
        to withdraw China's permanent trade status unless 
        serious improvements are made in the areas of human 
        rights, political reform, and demilitarization of the 
        South and East China Seas.
        Link continued progress on all three to all future 
        relations, including trade. Deny foreign tax credits to 
        companies that invest in the localities with gross 
        human rights violations, and other similar measures to 
        address the unfairness of one-way free trade that is 
        resulting in China's huge trade surplus of $3 trillion 
        with a resulting loss of millions of American jobs--all 
        of which will not only bring back jobs from China, but 
        allow the United States to take the moral high ground.
        Number 2. Use Taiwan and Hong Kong as leverage. Modify 
        the Taiwan Relations Act and the six assurances to 
        reflect a full democratic country status and affirm its 
        legitimacy by allowing Taiwan to be a normal member of 
        the international community. Support Hong Kong's 
        struggle for universal suffrage by making it a major 
        bilateral issue with China.
        Number 3. Use Japan as leverage. Encourage Japan to 
        take the lead in promoting democracy in the Asia 
        Pacific and return it to a normal status of a great 
        power.
        Number 4. Use the Chinese regime's lack of legitimacy 
        and moral standing as leverage, engaged with the 
        democratic forces in China, the Chinese, Tibetans, 
        Uyghurs, Falun Gong Practitioners, Christians, 
        representative of this panel as a new level by passing 
        the China Democracy Act to ensure all U.S. Government 
        agencies are resolute and consistent in advancing a 
        democracy agenda when engaging with China.
        And by passing China's Defense of Human Rights and 
        Civil Society Act, a China-specific Magnitsky-like 
        legislation that would ban travel and freeze the assets 
        of Chinese human rights abusers. And pass the act to 
        rename the plaza in front of the Chinese Embassy after 
        imprisoned Nobel Laureate Dr. Liu Xiaobo.
        Number 5. Use the UN human rights mechanism as leverage 
        because both the Chinese Government and its people 
        regard the United Nations as a legitimate world-
        governing authority, and the Chinese Government has 
        taken the United Nations as the stage on which it seeks 
        to compete with the United States to build a bi-polar 
        world order in its own way. The Trump Administration 
        must strengthen the U.S. leadership role in forming an 
        alliance of democracies to collectively confront China 
        on human rights issues.

    Thank you.
    Chairman Smith. Dr. Yang, thank you very much for your 
testimony and recommendations. As usual, you have been a great 
leader.
    I would now like to ask Mr. Chen Guangcheng to present his 
testimony.
    [The prepared statement of Mr. Yang appears in the 
appendix.]

     STATEMENT OF CHEN GUANGCHENG, CHINESE LEGAL ADVOCATE; 
 DISTINGUISHED VISITING FELLOW, INSTITUTE FOR POLICY RESEARCH 
      AND CATHOLIC STUDIES, CATHOLIC UNIVERSITY OF AMERICA

    Mr. Chen. Thank you. Greetings to the Chair people, to all 
the human rights Congressional representatives. Ladies and 
gentlemen, hello.
    In China, people know me as the ``barefoot lawyer.'' 
Despite having no formal training as a lawyer, I did the work 
of a lawyer, bringing officials to court and asking that the 
party respect China's own Constitution and laws. As a result, I 
endured seven years of kidnappings, house arrest, secret 
detention, and imprisonment.
    After I was let out of prison, my family and I were put 
under illegal house arrest and conditions even worse than 
prison, including torture, until I finally escaped.
    My own experience tells me that one should not hold out any 
hope in the Communist Party. This is a fascist regime that 
destroys the essential goodness of humanity.
    The Communist Party has been persecuting its own people for 
years.
    Last year it began the infamous 709 Crackdown, persecuting 
human rights defenders and lawyers, torturing people and 
implicating family members by association. Some attorneys and 
activists in detention have been forced to make confessions of 
guilt in the state-controlled media, and have subsequently been 
sentenced to prison.
    But some, like Li Heping, Li Chunfu, Wang Quanzhang, and 
Xie Yang, and other attorneys refuse to admit guilt, and hence 
continue to be held illegally. Two weeks ago, Attorney Xie Yang 
was tortured by prison police, and Attorney Jiang Tianyong has 
been disappeared. Activists Huang Qi and Liu Feiyue have been 
taken by public security. Countless netizens have been blocked 
online, and their speech censored.
    Under Party control, the Chinese people have long lived in 
a state of suffering and fear. It should be clear that 
Communist authoritarian control is the enemy of humanity. We 
must put a stop to its destruction of humanity's civilized 
values.
    On the other hand, America is a great nation that truly 
stands out in its commitment to universal values. There is 
simply no way to compare the United States and China on this 
front. Hence, America must be a model for human rights, and a 
leader in the global push to democracy. The American system has 
the strongest immunity against corruption, and the greatest 
capability for correcting its mistakes.
    Democracy, freedom, and human rights are America's founding 
principles. After many injurious years of appeasement and self-
belittling, the time has come for the United States to 
reinvigorate its core values and to protect universal human 
rights.
    I would like to make the following recommendations to the 
incoming Administration and Congress regarding human rights:

        Number 1. Correct the mistaken policy of separating 
        trade from human rights. Human rights are like clean 
        water, clean food, and clean air--they are an 
        indispensable part of life, and cannot be separated 
        from anything we do.

    The essence of the policy of separating trade and human 
rights is to focus solely on making money, without care to 
justice or ethics. In addition, the reality is that a country 
with strong human rights and rule of law is a better business 
partner for American companies.

        Number 2. In its position as a global leader, the 
        United States should express a position of leader 
        support for the universal values of freedom, democracy, 
        and human rights.

    When a dictatorial regime uses force to suppress its 
people, the United States should act decisively to stop it. In 
addition, we should reconsider NATO's function, to transform 
NATO from a hedgehog quill to a heroic sword.

        Number 3. Prevent human rights abusing officials from 
        entering the United States. Investigate and where 
        illegality is found, freeze the U.S. assets of 
        Communist Party officials.
        Number 4. Prevent the Communist Party from infiltrating 
        U.S. academia, media, and other institutions.
        Number 5. Demand that the Chinese Communist Party 
        respect the UN International Treaty on Human Rights. 
        Change the policy of speaking with the CCP [Chinese 
        Communist Party] on issues of human rights behind 
        closed doors, otherwise we will continue the useless 
        conversations we have now.
        Number 6. Ensure reciprocity of visas for journalists, 
        and prevent the CCP from using visas to punish 
        journalists who expose the crimes of the party.
        Number 7. Invest in tools to get past Internet blocking 
        mechanisms, to assist those who seek freedom in getting 
        past the Great Firewall [Internet Berlin Wall]. 
        Establish direct communication with the Chinese people, 
        instead of just with the party.
        Number 8. Establish international, collaborative 
        mechanisms to prevent the Chinese Communist Party from 
        persecuting its own people internally, and from 
        breaking down international procedures externally.

    Great nations have great responsibility. In Chinese there 
is an ancient saying: ``Bring out the best and eliminate the 
worst under heaven.'' This should be the principle to follow.
    As long as we join together, we can banish dictatorships, 
and make the world a better place.
    Thank you.
    Chairman Smith. Mr. Chen, thank you very much for your 
eloquent statement. I would note that we have had--I have 
chaired 61 Congressional hearings on human rights in China. One 
was about you, four were with you when you spoke Chinese, and 
this is the first time you have presented your testimony in 
English. [Laughter.]
    So, I thank you for that.
    Mr. Chen. Thank you.
    Chairman Smith. Bob Fu, our next speaker, was the one who 
translated when you called in from your hospital bed in Beijing 
and got you on the phone through some mysterious way I will 
never understand, but I would like to now yield to Pastor Bob 
Fu for his testimony.
    [The prepared statement of Mr. Chen appears in the 
appendix.]

     STATEMENT OF BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Mr. Fu. Thank you, Mr. Chairman, thank you Congressman 
Hultgren for your leadership, too. Thank you Cochairman Rubio 
for the leadership.
    Mr. Chairman, your persistency, perseverance, and constant 
attention on the human rights, religious freedom, and rule of 
law globally, including my motherland, China, has, I think, 
already made a lot of differences. Sometimes, we have some 
setbacks, but I do think ultimately we will see a free and 
democratic, constitutional China.
    As my other distinguished friends and witnesses have 
already said, we can pretty clearly see that today's China, the 
human rights situation, and the situation on religious freedom 
and rule of law should be recognized as the worst, perhaps, 
since the Cultural Revolution.
    Just to give you two latest illustrations, as my friend, 
Chen Guangcheng, just mentioned, just barely 16 days ago a 
friend, prominent human rights lawyer Jiang Tianyong, went 
missing and presumably was kidnapped based on his past 
experiences, for visiting a family member of another imprisoned 
human rights lawyer, Xie Yang.
    Mr. Jiang Tianyong--remember in 2009, when I organized a 
rule of law delegation with a group of human rights lawyers to 
the U.S. Congress, and it was you, Mr. Chairman and Mr. Wolf, 
who actually organized two congressional hearings. I still 
remember when we asked those fellow human rights lawyers and 
defenders who were willing to really testify for two hearings: 
one on the rule of law in China; one on the forced abortion and 
forced sterilization in China.
    Attorney Jiang Tianyong attended and testified twice. That 
really takes courage to do that. Today is the 16th day he is 
missing.
    So I hope you could really exercise your leadership and 
continue to push for his freedom. I want to recognize that Mr. 
Jiang Tianyong's wife, Ms. Jin Bianling--I invited her to be 
here today, really to witness this, and she is here today 
behind me. Ms. Jin Bianling is here.
    So we just visited the State Department and also the 
Minority Leader, Nancy Pelosi. We hope that Mr. Jiang 
Tianyong's whereabouts could be, at least, revealed, if not 
freed. But he has committed nothing wrong, just the visiting of 
fellow family members of human rights lawyers.
    Another example--on November 29, just barely a week ago, 
another human rights and democracy leader, Mr. Peng Ming. He 
was suddenly declared dead by the prison authority after he was 
kidnapped from Burma as an American refugee and permanent 
resident and was sentenced to life in prison. So, for the last 
12 years, he has been suffering imprisonment in China, and 
suddenly he was declared dead.
    The government even confiscated his death certificate. His 
three children, who are all American citizens; several of them 
actually testified and met with you, like Lisa Peng, and they 
live in Cleveland, Ohio. They want to visit Peng Ming's 
funeral; and to bring his ashes back and his belongings. Yet, 
the day before yesterday, the Chinese Embassy and Consulate 
rejected their visa application even to visit their dead 
father.
    So these are just the latest examples to show that really 
the situation is becoming very worrisome. I think it is time to 
have a major paradigm shift in the whole approach to the China 
policy in the next administration. The so-called laid on the 
back, or behind, or acquired diplomacy is nothing but a real 
miserable failure.
    Here are just a few of my recommendations. Besides the 
recommendations, I really agree with the previous speakers on 
the--I think to help pass the global Magnitsky Act, to hold 
those human rights and religious freedom abusers and the 
corrupted officials accountable.
    Another one I agree with is to really develop and push down 
the 21st century Berlin Wall, the Internet firewall. The other 
four, I would just very briefly mention that I want to 
encourage the Trump Administration officials and President-
elect Trump to really--to not only raise these human rights 
abuse cases behind closed doors, but really, more importantly, 
to raise them publicly.
    Second, I think it is time to use a multifaceted approach 
on human rights and religious freedom. The so-called annual 
Human Rights Dialogue is just nothing but a waste of time and 
taxpayers' money and should be abolished. I think human rights 
should be on the center and front. Overall, our strategy, no 
matter business, economic policy, strategic dialogue, this 
should be on the frontline.
    Third, I encourage the incoming Trump Administration to 
adopt a concerted, internationally coordinated effort by 
working jointly with our allies in Europe and other regions. I 
think the release of imprisoned lawyer Zhang Kai and Pastor Wen 
Xiaowu were good examples--showing a concerted, coordinated 
effort globally could produce real fruit.
    Fourth and finally, I think to really--this is important 
that the United States should unequivocally condemn the Chinese 
brutal violation of international laws by overstepping their 
own nation's boundaries to kidnap and detain citizens, I think, 
as Chairman Smith just mentioned in his opening remarks. The 
dissidents, like Jiang Yefei and Dong Guangping--they were 
already under UNHCR [UN High Commissioner for Refugees] 
protection, and the Canadian Government already put them on the 
resettlement list. Yet, the Chinese Government--under pressure, 
the government expatriated them and paraded them on TV, so-
called confessing their crimes. Now, we do not know where they 
are being held and they have not been tried for over a year.
    Of course, we have all known about the treatment of the 
Hong Kong--the Causeway Bay bookstore owners. I am so glad that 
today one of the managers from that bookstore flew from Hong 
Kong yesterday to come over to tell the stories. He was the 
only witness, Mr. Hu Zhiwei. He is 75 years' old and the author 
of 120 books. He witnessed how the bookstore owner, Mr. Lee Bo, 
was kidnapped by nine mafia-like men, by the Chinese military. 
They also confiscated over 250,000 copies of the books and 
secretly transported them back to China and destroyed them into 
pieces.
    The value of monetary loss is over 30 million Hong Kong 
dollars. I hope our congressional leaders could shake hands 
with him, encourage him afterward and our media friends can 
continue to interview him.
    He is the only witness, and today is his first time he 
showed himself with courage. Even in Hong Kong, he was being 
photographed by the Chinese special agents. When he reported it 
to the Hong Kong police, that special agent was taken to the 
police station. An hour later, that agent was released and the 
Hong Kong police said, ``No, we cannot deal with a higher 
authority from Beijing.''
    So that is the situation in China today. So thank you very 
much for your patience.
    Chairman Smith. Pastor Fu, thank you very much.
    I just want to point out we have been joined by Ranking 
Member Walz. Would you like to----
    Representative Walz. No. I will wait.
    Chairman Smith. Okay. Thank you, and thank you for your 
leadership.
    I do want to note that the selection as to the order of the 
panel is completely arbitrary. This is a panel of extraordinary 
men and women, heroes, one and all. Again, I want to thank you 
all for--seven members on a panel is quite large, but you have 
made the difference and will make a difference going forward.
    Our next witness will be Wei Jingsheng. Again, a man who 
spent 18 years suffering cruelty that is just beyond the pale. 
And I would like to yield to him.
    [The prepared statement of Mr. Fu appears in the appendix.]

    STATEMENT OF WEI JINGSHENG, CHAIRMAN, OVERSEAS CHINESE 
                      DEMOCRACY COALITION

    Mr. Wei. [With the aid of a translator.] I think during the 
Trump Administration the trade relationship with China will be 
a major policy he has to force China to improve its human 
rights conditions, and to increase its open market. I think it 
will be a very important policy. I think in this regard, CECC 
could be able to have a very important function.
    So to save time, I will let my English be read by my 
assistant.
    When Donald Trump becomes President of the United States, 
he is planning to abolish the TPP [Trans-Pacific Partnership] 
and to begin a trade war with China in order to save the U.S. 
economy. Some people say that this is a disaster. I would say 
this is the right way that should have started even earlier.
    The reality after 16 years well explains my position--
granting China permanent most-favored-nation status, that is a 
permanent normal trade relationship, was a huge mistake. It did 
not promote the development of the U.S. economy, but was a 
blood transfusion from the United States to the Chinese 
economy. It gave China the opportunity to engage in a trade war 
with the United States.
    The reason is as follows. The so-called free trade, refers 
to a unified law based on the domestic market, thus allowing 
the free trade. Such a free trade can be carried out normally 
between countries with a similar legal system. There cannot be 
normal free trade between countries with completely different 
legal systems.
    For example, after trade with China liberated, there were 
two main problems: one was cheap labor; one was its uncertain 
laws that always change.
    Since Chinese law does not guarantee human rights, it is 
able to keep labor prices at a very low level. This has led to 
the relocation of the U.S. companies to foreign countries, 
while it also allows Chinese goods to enter the U.S. market 
with low prices, resulting in unfair competition. It is an 
important cause of unemployment in the United States.
    China's precarious legal system creates serious non-tariff 
barriers. Any local government can develop their own laws and 
regulations, without the need to implement the signed treaties 
and agreements between the Chinese central government and the 
foreign countries. So they can actually close their targeted 
import market.
    Coupled with the manipulation of the currency by the 
Chinese central government, those actions increased the exports 
and created a huge trade surplus for China. This is an 
important reason causing the economic recession in the United 
States.
    Some people say, for the United States, fighting a trade 
war with China will end in defeat, at least a lose-lose result. 
I think such statements are to confuse the U.S. policymakers. I 
think the United States will win this trade war, while China 
can only succumb to the rules developed by the United States, 
otherwise it will accelerate the collapse of the Chinese 
Communist regime.
    My reasons are as follows. First, for the majority of the 
goods are in the buyers' market. The United States holds the 
markets, thus it has the power to develop rules, instead of 
forcing itself to comply with that so-called global free trade 
rule that cannot be enforced. The United States can formulate 
its own fair trade rules, to replace the invalid so-called free 
trade rules.
    Second, the Chinese domestic market is narrow and cannot 
afford the disaster of losing the U.S. market. So China can 
only compromise on the rules thus to protect part of the market 
share.
    Third, in the past, due to over-expansion of export 
production of shoddy goods, the quality of Chinese enterprises 
is very poor. In order to adapt to a fair market in the 
competition, Chinese companies must quickly upgrade. Therefore, 
there will be great demand for technology and services from the 
United States to open up the import market in the United 
States. This will help expand the U.S. exports and reduce its 
trade deficit with China.
    Fourth, after improving human rights in China, the income 
of the Chinese working class will increase, therefore the 
domestic consumer market will expand. This expansion would 
benefit the U.S. exporters after fair trade, therefore, 
reducing the U.S. trade deficit and even eliminating it.
    So I think that the United States will win the trade war, 
and in the long run will also be beneficial to the economic 
normalization in China. China must accept and should accept it.
    Thank you.
    Chairman Smith. Mr. Wei, thank you so very much for your 
leadership and for your testimony today, recommendations.
    I would like to now yield to Ms. Rebiya Kadeer.
    [The prepared statement of Mr. Wei appears in the 
appendix.]

  STATEMENT OF REBIYA KADEER, PRESIDENT, WORLD UYGHUR CONGRESS

    Ms. Kadeer. [With the aid of a translator.] Thank you. 
Chairman Smith and Cochairman Marco Rubio, and respected 
Members of the Commission, I would like to thank you for 
holding this timely and important hearing, and thank you for 
inviting me to testify. I also thank all the people who 
attended.
    So I am trying to learn English so I cannot read my 
statement. I have prepared a statement. So I would like to ask 
my assistant to read my written statement.
    Since my release from a Chinese prison in 2005, I have 
reported to the Commission the continuing human rights 
violations targeting the Uyghur people. As the Commission has 
noted in its annual reports, political freedoms in East 
Turkestan are among the most limited in China. The right to 
association and assembly is prohibited and freedom of speech is 
punished severely, as the case of imprisoned Uyghur academic 
Ilham Tohti illustrates. Economic discrimination, erosion of 
language rights and religious restrictions add to the already 
depressing condition of Uyghur human rights.
    President Xi Jinping has attempted to codify these 
violations in a series of repressive laws, such as the ones on 
counter-terror and cybersecurity. Implementation measures of 
the counter-terror law at the regional level in East Turkestan 
are a clear indicator of who China intends to target with these 
draconian measures.
    Nevertheless, China believes it should go further with its 
suppression. Arbitrary detentions, forced disappearances, and 
extrajudicial killings continue.
    Recent media reports indicate that the Chinese Government 
has implemented a policy to confiscate passports in East 
Turkestan to limit the international movement of Uyghurs. This 
is the formalization of a policy that Uyghur human rights 
groups have documented since 2006.
    Islam is a cornerstone of the Uyghur identity. China has 
adopted a series of religious laws at the national and regional 
level that curb Uyghur rights to freedom of worship. Private 
religious education has been targeted for several years under 
these measures. However, this year Chinese authorities adopted 
rules to report parents who encourage their children to 
undertake religious activities.
    During the George W. Bush and Barack Obama Administrations 
my colleagues and I have worked hard to bring Uyghur issues to 
the attention of the U.S. political community. Our 
organizations regularly brief State Department officials and 
legislators at the U.S. Congress. We have managed to mainstream 
the Uyghur issue into U.S. Government reporting on human 
rights.
    China's heavy-handed policies toward Uyghurs are creating 
instability and desperation among the Uyghur people. These 
policies have become self-fulfilling in some respects, as some 
Uyghurs have become radicalized in their effort to oppose 
China's oppression.
    The United States should be concerned about these 
developments as it is in the Nation's interest to support the 
democratic aspirations of the overwhelming majority of the 
Uyghurs. Stability in East Turkestan, China, and the Central 
and East Asian regions offers the opportunity to spread 
American values such as freedom and human rights.
    The Administration of President-elect Donald Trump should 
continue support for the Uyghur struggle for human rights and 
democracy and step up public concern over rights conditions in 
East Turkestan with Chinese officials. Any sign that the United 
States is ready to relinquish its commitment to raising human 
rights concerns in favor of achieving policy gains elsewhere 
will be a victory for the Chinese regime.
    Furthermore, the incoming administration should exercise 
extreme skepticism regarding China's narrative that increased 
militarization and securitization in East Turkestan are 
justified in fighting radical Islam. The repression that 
accompanies security measures enables China to keep firm 
control of the region and suppress legitimate Uyghur claims for 
greater political, economic, social, and cultural freedoms.
    The Trump Administration should understand the situation in 
East Turkestan in similar terms to Tibet. It is a struggle for 
cultural survival in the face of formidable assimilative 
actions by the Chinese state.
    Let us be clear. Pressure works. My presence here today is 
testament to the success of pressuring Chinese officials. My 
colleagues and I will continue to put forward the Uyghur case 
to the international community. It is the responsibility of 
concerned governments to take this case directly to China and 
urge reform.
    The Uyghur people greatly appreciate the United States' 
support of our plight. However, we ask the incoming 
administration to publicly raise the Uyghur issue with China.
    In conclusion, I offer these recommendations to the Trump 
Administration:
    First, prioritize Uyghur issues, especially during the 
human rights dialogue and the strategic and economic dialogue 
with China.
    Urge China to allow foreign diplomats and journalists 
unrestricted access to East Turkestan and Tibet to 
independently document the conditions in the regions.
    Call on China to free Ilham Tohti, Li Xiaobo, and all 
Uyghur, Chinese, and Tibetan political prisoners.
    Ask China to change its repressive policies, which are the 
root cause of all bloody incidents in the Uyghur region.
    Meet Uyghur, Chinese, and Tibetan leaders and human rights 
activists at the White House.
    Create a special coordinator office at the State Department 
for the Uyghurs.
    Finally, ask the Chinese Government to allow my children to 
leave China.
    Thank you.
    Chairman Smith. Thank you so very much, Ms. Kadeer.
    I would like to now go to our final witness and thank her 
for being here. Xiaodan Wang, thank you for speaking out so 
faithfully on behalf of your dad, especially. The floor is 
yours. Please?
    [The prepared statement of Ms. Kadeer appears in the 
appendix.]

     STATEMENT OF XIAODAN WANG (DANIELLE WANG), FALUN GONG 
  PRACTITIONER AND DAUGHTER OF FORMER POLITICAL PRISONER WANG 
                             ZHIWEN

    Ms. Wang. Hello everyone. First, I would like to thank the 
Honorable Representative Smith and Senator Rubio and other 
honorable Members of the Commission for having me as part of 
this important hearing.
    I am the daughter of Zhiwen Wang, a loving father and kind 
spirit who has endured the persecution of Falun Dafa since it 
started on July 20, 1999.
    My husband and I returned from China this year empty-
handed, shocked, and heartbroken after experiencing the 
persecution firsthand as U.S. citizens. My story is one of the 
millions, but I hope it will shed some light on why the U.S. 
Government's continued role is so critical in ending this 
atrocity.
    In 17 years, there has never been a moment of relief from 
constant worry about my father's safety. He was arrested and 
sentenced in December 1999 because he practiced Falun Dafa.
    Over the next 15 years, he suffered tremendously; lost his 
teeth, and had his collar bone broken, and even suffered a 
stroke in prison one month before his release. Then he was sent 
to a brainwashing camp in a final attempt to break his spirit 
in October 2014.
    When he made it back home, he was subject to surveillance 
by police video cameras and neighborhood watch. Even today, he 
has four agents outside of his front door 24/7.
    After my father received his passport in January 2016, my 
husband and I prepared his immigration and traveled to China in 
July. This should have been a straightforward trip, but what we 
encountered was just a small taste of the persecution my father 
had endured for 17 years.
    We were followed by an undercover agent and harassed by 
police. They tried to intimidate us and get under our skin. 
They taunted us and abused their power, and ultimately, they 
slammed the door in our face as we attempted to take the last 
step to freedom.
    We experienced firsthand the discrimination and injustice 
Falun Dafa practitioners face every day. Regardless of what the 
Chinese law states, practitioners are treated as criminals, 
purely for their existence.
    The night before our flight home, a group of 30 police and 
agents showed up in our place in Guangzhou trying to force 
their way in. They shouted in my face and tried to scare us.
    Although they relented eventually, they stationed spies 
outside of our place to monitor us. We had no choice but to 
continue on with no one to turn to and no one to protect us.
    We left the next morning and drove an hour and a half south 
of Guangzhou to the city of Dongguan only to be greeted by 
spies waiting for us at the ferry terminal.
    In the end, we could not even make it through Customs. They 
canceled his passport by cutting it.
    To think all of the years of struggle, sleepless nights, 
and thousands of miles traveled all ended with a pair of 
scissors is unbelievable. It is still hard for me to bear that 
I had to leave my father behind in China to face this cruel 
environment alone. If my father and I did not practice Falun 
Dafa, I may have broken down completely right there.
    I know that not all in China are in support of this 
persecution. It is the former Chinese Communist Party leader, 
Jiang Zemin, behind it. Zeng Qinghong, Jiang Zemin's right 
hand, is also in power in south China and played an important 
role in denying my father's departure to America.
    In addition, the Chinese regime continues its efforts to 
spread the persecution via propaganda, misinformation, and 
infiltration.
    I ask the new administration, and all officials interacting 
with their Chinese counterparts to let no opportunity pass by 
without pushing them on the persecution on Falun Dafa, and the 
monstrous practice of organ harvesting.
    It is crucial that the United States remain true to the 
role of human rights champion in the world and bring human 
rights to the center stage in dealing with China.
    And finally, I urgently request that the new 
administration, Department of State, Congress, and all relevant 
departments help me bring my father home for medical attention 
so we can finally have our happy ending and a new beginning.
    I want to conclude with my dad's thanks. He said, he would 
like to tell the U.S. Government it actually put his heart at 
ease when he was in jail because he knew that I was studying in 
the United States. Thank you.
    [The prepared statement of Ms. Wang appears in the 
appendix.]
    Chairman Smith. Thank you so very much for your testimony. 
The love of a daughter for her father is just truly inspiring.
    Just a couple of things I will mention, ask you a few 
questions, and yield to my good friend, Mr. Walz.
    Pastor Fu, you mentioned the case of Jiang Tianyong who has 
gone missing. For the record, I would ask unanimous consent 
that we include this in the record.
    Marco Rubio and I sent a letter to the Ambassador of China 
to the United States on December 7, expressing our deepest 
concern regarding the recent disappearances of three Chinese 
citizens, Jiang Tianyong, Liu Feiyue, and Huang Qi and we are 
hoping for an answer, and we will follow it up with the Embassy 
to try to get to the bottom of it, and to advocate for them. 
But, thank you for bringing attention to this.
    You did make the point, Pastor Fu, that the human rights 
situation is the worst in China since the Cultural Revolution. 
That is the best-kept secret in Washington and in capitals all 
around the world, as we continue what Chen Guangcheng said in 
his testimony is an attitude of appeasement toward China that 
manifests itself all over the United Nations, among nations, 
and certainly in capitals around the world, including 
Washington.
    So I want to thank you for being bold enough to say 
exactly--we perhaps, have naive misconceptions about the 
Chinese dictatorship under Xi Jinping, but as our report this 
year clearly chronicles, when you look at all of the changes, 
the new laws, draft laws, and the like that have gone into 
effect, whether it be on cybersecurity, whether it be on NGOs, 
and the tightening of the noose around NGOs, which is really 
a--harbinger of a crackdown, what is happening with regard to 
religion of all kinds, including the officially recognized 
churches like the Patriotic or Three Self movement which are 
being increasingly crushed. The underground is already crushed.
    It is time for a significant reappraisal, which you all 
have helped provide to the Commission, which we will convey to 
policymakers and also enlighten ourselves.
    There are things that could be done immediately by the 
President-elect when he becomes president. It was not done 
during President Obama.
    On visas, I wrote the law in 2000, The Admiral Nance, Meg 
Donovan International Foreign Relations Authorization Act of 
2000, which is a permanent law that says anybody who was 
complicit with the barbaric one-child--now, maybe, two-child--
per couple policy, but the enforcement mechanisms of coercion 
remain unabated, can be precluded from issuance of a visa by 
the United States. It is reason for denial. It has not been 
implemented in the 16 years that it has been in effect since 
2000.
    The Global Magnitsky Act is in route to becoming law. It 
has passed as part of the NDAA [National Defense Authorization 
Act]. It is in a very good form, I believe. And it can be 
immediately applicable to Chinese torturers and violators of 
human rights in our admonition to the administration. When that 
is signed the next steps would be to start chronicling the 
names, produce lists of human rights abusers, and then hold 
them to account. A visa denial is one modest, but meaningful 
way of doing that. So we will be pushing that, so thank you for 
raising those issues as well.
    Mr. Speaker, you mentioned the worsening of the 
mistreatment of a Tibetan Buddhist. The New York Times, ``China 
Takes a Chainsaw to a Center of Tibetan Buddhism'' by Edward 
Wong. You are talking about what has gone on in Larung Gar.
    You might want to speak to that, because I think that is a 
highly visible manifestation of the hatred with which the 
dictatorship holds for faith-filled believers, including 
Tibetan Buddhists, Uyghurs, Falun Gong, Christians--I mean, it 
is one thing to profess to be an atheist. You have every right 
to be an atheist, but you have absolutely no right--and 
certainly international law is clear on this--to so 
aggressively suppress, torture, and hurt those who believe in 
God or in a spiritual practice like Falun Gong.
    So you might want to speak to that, if you would. Any of 
you who would like to speak to the visa ban, and the fact that 
it should be teed up right now for President Trump to say, we 
are going to be serious about denying visas to those 
individuals who commit these atrocities. And also, CPC [Country 
of Particular Concern]--on religious issues, China has been on 
the CPC list on a law that was written by former Congressman 
Frank Wolf, the International Religious Freedom Act of 1998. 
And Bush did not do much. Obama has done nothing with regard to 
sanctioning.
    As you know, there are prescribed in the International 
Religious Freedom Act some 18 specific actionable items, the 
least of which is a demarche, but then there are some very 
serious ones dealing with trade, security matters, sharing, 
like cultural exchanges and scientific exchanges that a serious 
administration could apply to say, ``We are not kidding. You 
have got to let the dissidents go. You have got to end the 
torture.''
    We had a hearing in this room recently in which we talked a 
lot about the torture chair--again, another one of the best-
kept secrets in Washington--that is routinely deployed against 
dissidents to try to break them. So, Mr. Speaker and others, if 
you want to speak, and then I will yield to Mr. Walz, and then 
go to Randy Hultgren.
    Mr. Tsering. Thank you, Chairman. The ongoing destruction 
of residences of monks and nuns in Larung Gar is a very serious 
problem that is facing Tibetan Buddhism today. Larung Gar--some 
estimate that there are about 20,000 monks and nuns, but nobody 
has the exact number, but I think it is beyond 10,000 which 
makes it the largest center of Buddhist learning in the world.
    Larung Gar also faced the same fate in the early 2000s, 
when some part of it was destroyed by the Chinese Government 
and people started coming back. In fact, if the Chinese 
Government wanted to destroy it, then why did they allow 
settlement of monks and nuns in the first place?
    So this has resulted in the present problem. Now, the 
destruction in the case of Larung Gar could be a precursor to 
many of things that could come, if it is not condemned and 
stopped, then I am sure the Chinese Government will take this 
matter to other monasteries. There are already indications that 
Yargar which is also a monastery linked to Larung Gar may also 
face the same fate.
    In the rest of Tibet, particularly, in the Tibet Autonomous 
Region, the restrictions of monks and nuns have come down. 
Those days when Tibet was free and independent, we used to have 
7,700 and 5,500, and 3,300 in three big monasteries in Lhasa. 
Monks and nuns could come from different parts of Tibet to 
learn in the capital Lhasa, and then go back to their 
respective regions to teach, preach. They have now brought the 
numbers down to 500, and still less in those big monasteries.
    So Larung Gar is outside of the Autonomous Region, and the 
learning of Buddhism has increased over the years, not just for 
Tibetans coming from different parts of Tibet, but also a lot 
of Han Chinese who have interest in studying Buddhism. In fact, 
Larung Gar is supposed to have a large number of Han Chinese, 
and they are also becoming victims of the destruction that is 
taking place inside Tibet.
    This one example can exemplify how the Chinese Government 
abuses religious freedom inside Tibet. We have been appealing; 
the Central Tibetan Administration in Dharamsala has released 
and you must have seen videos of monks and nuns being forced to 
go back and asked to sing and forced to dance. They were forced 
to dance and sing praises of the Communist Party after they 
were sent back to their respective region.
    So certain things which are unimaginable are happening, and 
we hope the U.S. administration will express their concern on 
the ongoing situation. So we hope the new administration will 
definitely pay attention to this and bring it to the attention 
of the Chinese authorities that this is not acceptable to the 
U.S. Government.
    I think the Congress should also adopt resolutions to 
condemn these kinds of actions by the Chinese Government.
    Mr. Yang. I am thrilled. I think that every member of the 
human rights community is thrilled that the Global Magnitsky 
Bill actually was passed in the House as part of a National 
Defense Authorization Act.
    We cannot wait to see it signed by the President into law. 
After that becomes law, we will work closely with CECC and 
other Congressional organization committees, and the State 
Department, and the White House.
    With the least of these, we think we should ban their 
travel to the United States. I think this is just the beginning 
of the paradigm shift as my friend and colleague, Bob Fu, just 
said--paradigm shift. So I think I have been advocating--this 
is the second time for me to speak about it at a Congressional 
hearing--China Democracy Act.
    That is the Act that we all stated expressly that advancing 
human rights in China is in the national interest of this 
country, and to regulate every Federal agency to promote human 
rights in China while engaging with China. And also require a 
presidential report to the Congress about the progress.
    The parallel example would be recent because of Taiwan 
President Tsai Ing-wen's call with President-elect Donald 
Trump. So Taiwan has been in the headlines, but 37 years back, 
in Washington, everybody saw the Taiwan situation as 
inconvenient, just as nowadays. A lot of people present--prime 
ministers everywhere, see funding human rights issues as 
inconvenient. So they do not want to do it.
    As a policy, we can change--it is very situational. When 
the situation is not good, they want to change. The major 
mentality among the policymakers here 37 years ago was to 
abandon Taiwan altogether because the Taiwan issue had become 
very inconvenient. But a few Congressional Members insist that 
we have to defend Taiwan. We have to pass a law to regulate the 
President of the United States, every one of them have to take 
the responsibility as a duty of law to defend Taiwan.
    So 30-some years passed--then we looked back. This Act 
actually worked very well for the long-term interest of this 
country. But at that time, everybody found this inconvenient. 
This is just as a parallel to the human rights situation here.
    The president may find it very inconvenient, but we need 
the law. We need a China Democracy Act to be passed so that--
advancing human rights in China would become a duty of law for 
every president, and for every Federal agency in this country.
    Thank you.
    Chairman Smith. Dr. Yang, I would look forward to working 
with you on that----
    Mr. Yang. Yes.
    Chairman Smith (continuing).--legislation. We have talked 
before. I think your point about U.S. policy failures, we need 
a different approach. U.S. policy failures need not be forever. 
It is time to change.
    Yes, Mr. Wei?
    Mr. Wei. I want to say that the CECC should play an 
important role in the future trade war with China. During this 
trade war, human rights and religious rights are a very good 
reason.
    The CECC should really put human rights as a very important 
target during the future trade war. One side is, it is 
important to improve human rights. The other side is, to 
improve human rights would be beneficial to open the Chinese 
market to U.S. companies.
    As a matter of fact, I want to remind you that back 16 
years ago when there was a passing of this act about the normal 
trade relationship, it really has the condition as stipulated, 
CECC was really in the prospect to determine if this favorable 
trade relationship is suitable or not when Chinese human rights 
conditions are really bad.
    So we really should remind Donald Trump's team that, yes, 
the CECC could have used it--to use it for this trade war, but 
in the meantime, to improve human rights conditions in China. 
So I think CECC should become a very important tool for this.
    Thank you.
    Chairman Smith. Thank you Mr. Wei. Pastor Fu, and then 
Rebiya Kadeer.
    Mr. Fu. I want to go further a little bit from what Dr. 
Yang Jianli just said. We are so happy to see the passage of 
the Global Magnitsky Act as you have been leading with your 
colleagues.
    I think after this passage we also need to encourage our 
allies and regional partners to use their influence through the 
inter-parliamental mechanism to encourage other like-minded 
parliaments or like a European Parliament to pass a similar 
measure so that those human rights, religious freedom, rule of 
law corrupted abusers cannot find any safe sanctuary or haven 
in any part of the free world.
    So we have been working with our partners in Taiwan. I 
think even the Taiwan Parliament had great momentum with 
bipartisan, actually tripartisan now, support to make this 
happen.
    Also, I want to illustrate another barring sign about 
religious freedom. As you know, earlier this year, the Chinese 
Communist regime made a proposed new regulation on religious 
affairs. According to this new regulation, those who were fond 
of so-called illegally organized religious meetings or 
underground training, like my wife and I did 20 years ago--at 
that time we received two months' imprisonment, but, according 
to the newly proposed regulation, if it is passed, those 
leaders could be subject to up to the equivalent of US$33,000 
fine. And of course, point for criminal prosecution, including 
those who attend overseas religious training or a kind of 
conference overseas are liable to be punished this way.
    We just finished a training conference on kind of a 
biblical--on law and the government on Hong Kong with 400 
Christian leaders from mainland China there. This is the first 
time I found out the Chinese security agents even went to our 
conference and warned the conference--some of our Hong Kong 
partners which speakers should be allowed to speak.
    The two organizers in Hong Kong were violently beaten up 
when they returned to China a couple of weeks ago. So you can 
see the aggressiveness. I think it is a time to have a new 
paradigm to handle and deal with this kind of worsening 
situation.
    Chairman Smith. Thank you.
    Ms. Kadeer?
    Ms. Kadeer. So I would like to make a comment about a 
section in the Uyghur region. It is really very similar to what 
is happening in Tibet.
    There is now new regulations introduced by the Chinese 
authorities. According to these new regulations, the religious 
worship outside of the government-designated areas would be 
considered an illegal religious activity.
    So according to Uyghur tradition, according to our 
religion, we can worship at home. So we can pray at home. 
According to this new regulation, worshiping at home in private 
will be considered an illegal religious activity and be 
punishable by the government.
    And also now, Chinese authorities encourage the children to 
report about their parents' activities at home. Every week, 
even elementary school children are being questioned by 
authorities on what their parents have been doing at home, 
whether they are worshiping at home.
    So there are many families who are destroyed by this, you 
know, reporting because the children told the school 
authorities that their parents worshiped at home, so then their 
parents have been arrested by the Chinese authorities.
    And the same thing that happened in Tibet also happened in 
East Turkestan. The imams of the mosques have been forced to 
take to the streets and dance and sing praising the Communist 
Party. Cultural Revolution came back to East Turkestan, so 
women and men all get forced to take to the streets and sing 
songs praising their Communist Party and the Chinese 
Government.
    If anybody refuses to take part in these actions, they will 
be punished or fired from their workplaces. So there are 
thousands of people who are in Chinese prisons now, suffering 
in Chinese prisons. All of them have been arrested, detained 
because of these so-called illegal religious activities.
    Thank you.
    Chairman Smith. Chen Guangcheng?
    Mr. Chen. Mr. Chairman, I have two questions. One is before 
President Obama leaves office, we should press him to call Mr. 
Xi Jinping about the whereabouts of the attorney, lawyers that 
disappeared.
    And from the performance of the president during his eight 
years in office, we see that he never met any democracy 
activists, and dissidents from China. But actually, he spared 
his very valuable time to meet with Jack Ma, the billionaire of 
the Chinese.
    I wonder why the president has forgotten his duty to 
preserve the founding principle of the United States as a human 
rights protector and defender? And I hope that the new Trump 
Administration will adopt an agenda to end authoritarian regime 
with the help of the Chinese people there.
    I think that before Chinese human rights improve, I do not 
think America has any other choices.
    Thank you.
    Chairman Smith. Mr. Chen, on that question--it was part 
rhetorical, but I think it deserves at least some focus.
    In not meeting with the dissidents, and we have asked the 
President to meet both in Beijing when he travels there, and in 
the White House with dissidents--when Bush went to the 
Olympics, we asked him to meet with dissidents like Rebiya 
Kadeer and others, and he did. Wei, you will remember that. And 
he spent a considerable amount of time before setting foot into 
Beijing getting insights from the people who had suffered.
    The one that has troubled me the most is that after we had 
our Five Daughters hearing--we had five precious daughters of 
dissidents who are, today, still languishing in prison, 
including the daughter of Gao Zhisheng, who appealed to the 
President. Each of the five said, ``Mr. President, you have two 
daughters. You will understand. We want to meet with you and 
ask that you raise our father's cases by name with the 
President of China.''
    We sent over that request. They made it themselves. The 
Washington Post did an outstanding article on it, by the 
editorial page editor. It was December 2013, on the House 
Foreign Affairs subcommittee hearing, the Five Daughters 
hearing. We called repeatedly down to the White House. Will you 
meet, please, Mr. President with the five daughters who are 
young ladies?
    One wrote a beautiful piano song. She is a great pianist, 
but she wrote a song to her dad, and she just wanted to look 
the President in the eye and say, ``Please advocate for our 
dads' release, to the end of the torture.''
    After six months, we got back from the White House, he does 
not have the time.
    Mr. Chen. I would like to add one more thing.
    As we mentioned Mr. Jiang Tianyong, disappearing attorney, 
it was him who showed up at 2 a.m., at the wee hours in 
Beijing, during the President's visit because they learned that 
the President's office released a statement and said, ``Oh, no 
human rights advocates showed up during his visit.'' But that 
was not the case. So I want to emphasize that too.
    Chairman Smith. I would just add, Danielle was one of those 
five daughters. And, again, all we wanted was a face-to-face 
meeting so that the President could hear their appeals.
    I yield to my good friend.
    Representative Walz. Yes. Thank you to the Chairman.
    I would suggest, then, we put in a formal request to 
President-elect Trump to make that meeting from us as 
Commissioners. I would certainly be glad to sign that because I 
think it is what we ask for.
    I think maybe Yang Jianli brought up the idea of 
inconvenience. I think sometimes the Chinese Government feels 
like we will--we are not persistent, or we will lose our focus, 
or things that are inconvenient we will put aside.
    I would suggest to them that they have not met Chairman 
Smith, because he will not give up. He will be persistent, and 
I think that is what we need. So I think that is exactly what 
we should do.
    To each of you, it is a privilege to be here with you, and 
every time I come, I am inspired, I am encouraged, and I 
realize that the fight goes on. At times thinking, as a Member 
of Congress, what can I do? Then I watch extraordinary people 
in circumstances sometimes beyond imagination rise up on those 
very issues that are our core foundation issues of human 
rights, and that is truly inspiring.
    It is from these hearings, and it is from each of you who 
have testified before--some of us have become friends over the 
years--that told us you need to continue to talk. I think we 
have spoken on this, and to let some of you know last year we 
traveled to Hong Kong, to Tibet, and then met with Premier Li 
in the Forbidden City.
    I can assure each of you it was something I thought I would 
never witness. Sitting in the Forbidden City with the Premier 
of China and him answering questions about His Holiness the 
Dalai Lama, him asking questions and answering questions about 
Falun Gong, about the Uyghurs, about freedom of religion, in 
Hong Kong. And I can tell you this, that Ambassador Baucus 
along with Leader Pelosi, myself, and other Members of Congress 
did meet with those dissidents in Beijing in the U.S. Embassy, 
and it is a good thing we have divided government because we 
have a voice. We continue to speak out on these issues, we 
continue to find common ground.
    So I cannot tell you the courage you give me, the 
instruction that you give me to continue talking because many 
of us up here worry the inconvenience, or more importantly, it 
is one thing for us to say what we are going say, and then go 
to our homes while your families are still in Chinese prisons, 
while your families are still under threat, the feedback we 
have gotten from you is, continue to make this issue.
    I will just ask, or maybe make a statement, maybe 
rhetorical a little bit. Wei Jingsheng brought up this point 
about tying trade to human rights. Those of us in here know 
going back to President Clinton, most-favored-nation status and 
some of the changes--I certainly was under the illusion that 
liberalizing trade and openness would have a significant impact 
on liberalization of personal freedoms.
    I have now seen that is not the case. As I told someone--
again, it is anecdotal, but I can tell you this. I have been to 
Hong Kong dozens, and dozens, and dozens of times, both going 
from Fosan as a young teacher to Hong Kong, and coming here.
    The last time I went--and certainly it was the first time 
as a U.S. Congressman, Hong Kong is significantly different. 
Hong Kong feels different, and it feels different in one of 
those most basic ways of personal freedoms, religious freedoms, 
freedom of expression. And those should be concerns of ours.
    I think going--I would say this, just as a suggestion, I am 
not sure President-elect Trump would characterize it as a trade 
war, but I do think he should probably characterize it as a 
recalibration of fair trade. I think as a Nation, this is an 
important discussion we should have.
    We may get cheaper products at our local big box store, but 
it comes at a price. It comes at a price as workers as Wei 
Jingsheng said. It comes at a price in wages. It comes at a 
price in our economy, but it also comes at a price to human 
rights for those workers. It comes at a price that we have lost 
our leverage.
    I would say this. I am very encouraged that it appears that 
incoming Defense Secretary, General Mattis has impressed upon 
President-elect Trump that torture is not something that we do, 
and it is not something that we accept from others.
    I think this does give us a chance to reset. This does give 
us an opportunity because of a peaceful transitioning 
government here to highlight those things, and I would say that 
each of you said this, I think this Commission can be a place 
for that to start again.
    I think you have got a Chairman that has been dogged about 
it. You have got a Chairman that has been consistent across 
administrations. When they fail or fall short, he has called 
them out. When they have done something right or leading in 
that right direction, he has praised them for that.
    I think I do not speak for all of the Commissioners, but I 
agree with that. I, for one, am serious. I think we send a 
letter and ask the President-elect to meet with the five 
daughters if that is what we are going to ask.
    We should be prepared that that may not happen, too. I 
think as a Commission, it may or it may not, but our 
responsibility is clear and it comes from each of you saying 
this. We need to continue to press these issues. We need to 
continue to recalibrate how we do this.
    I think we underestimate the leverage of both--by our 
actions--this was a fascinating thing, and I never thought this 
would happen. Premier Li was really fascinating because I told 
them I had been to Tibet before. And I said I had been to Tibet 
in 1989. And they said, ``No, it was February of 1990.'' They 
are very good at remembering when I was there, better than I. 
[Laughter.]
    They said, ``Has it not improved? '' And I said, ``Well, it 
was easier than going by bus for seven days from Chengdu, 
because now we could fly in or take the train. There were more 
hospitals. There were more shops.'' But I told them candidly, 
speaking face-to-face, I said it is very different. The culture 
is very different.
    And he said, well, you saw a village or whatever. Yes, a 
Potemkin village that they showed us that was not there.
    But he brought up something very interesting that showed me 
that this relationship is changing a little bit. He said, 
``Congressman, I know when you were a young man, you taught on 
the Pine Ridge Native American Reservation in South Dakota. How 
did America treat the Native Americans? ''
    And I answered to him, ``I would not use us as an example 
of the right way to do it because many of us know there are 
things we could do differently. We are asking you in the spirit 
of friendship, cooperation, human rights to work with these 
issues and to understand all of us have to go through that.''
    And it was fascinating to me that the Premier was gracious, 
he engaged in this conversation. I did not have any 
expectations there would be a change, but I think it did show 
if we continue to bring these issues up, if we continue to lead 
with our values, and tie those to our economic policies, not 
separate them from that, that there is potential here for us to 
get to a common ground.
    I think for all of us, we have to continue to believe that 
because whether it is our father, whether it is our relatives, 
whether it is our own family being asked to make gripping 
choices, we have to see a better day.
    So again, I thank each of you. I do not have a question of 
you, but I think it is important to stress the inspiration you 
bring to others, the courage that you bring to others, and to 
speak about an issue from the United States, I know does not 
take courage. To stand up and say it in Beijing or in Foshan, 
or in Guangdong, those take courage understanding there will be 
repercussions. This issue of basic human rights, it unites all 
of us.
    So I thank the Chairman once again for putting together a 
remarkable panel. I do think it needs to be said, your 
persistence on the issue of human rights is something 
incredibly admirable. It is something that every day I am glad 
you are still here, because I do think--and the Chinese know 
this--they just want to wear you down over time. They want to 
wear you down. I have seen it. They found the one person they 
are not going to wear down. So I am glad to be with him.
    I yield back.
    Chairman Smith. Thank you very much. I thank you for your 
leadership for decades on behalf of human rights in China, and 
I think the idea that you suggested is a great one. We will 
follow it up, and it will be a letter from you and I, and, of 
course, the other--the Cochair and I am sure Marco will readily 
agree with that.
    Is there anything else anybody would like to say before we 
conclude? [No response.]
    For the record, I would ask unanimous consent that 
statements from the 709 Lawyers' Wives and the Southern 
Mongolian Human Rights Information Center be made a part of the 
record. Without objection, so ordered.
    Again, thank you all for your insights. This is a new 
beginning. The failed policies by any previous administration 
need to be matriculated to something that works. You have given 
us the blueprint.
    Thank you so very much. The hearing is adjourned.
    [The statements appear in the appendix.]
    [Whereupon the hearing was concluded at 4:08 p.m.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Penpa Tsering

                            december 7, 2016
    Thank you for this opportunity to testify before the Congressional-
Executive Commission on China regarding on our recommendations to the 
next United States Congress and Administration on human rights in 
Tibet. This is my first testimony before the United States Congress 
following my appointment as Representative of H.H. the Dalai Lama to 
the Americas. Therefore, I would like to begin with offering the 
gratitude of the Tibetan people to the United States Congress for your 
consistent and strong support to His Holiness the Dalai Lama and the 
Tibetan issue.
    Through its elections the United States and the American people 
have shown democracy in practice. Following the results, His Holiness 
the Dalai Lama has written to both President-Elect Donald Trump and 
Secretary Hillary Clinton. His Holiness further looks forward to 
meeting with the new President, just as he has done with the previous 
several presidents.
    At the outset, for those who don't much about Tibet, I wish to 
present few basic facts. Some people feel that Tibet is a very small 
country nestled in the Himalayas. Factually, Tibet with close to 6 
million Tibetans live on 2.14 Million Sq. Kms, roughly 23 percent of 
China's total landmass. Tibet has an average altitude of 4641 meters or 
15226 feet above sea level. Tibetans call Tibet as the Land surrounded 
by snow mountains; westerners called Tibet as the roof of the world; 
Asians call Tibet as the water tower of Asia and today Chinese 
environmental scientists call Tibet as the third pole because of the 
amount of glaciers and permafrost that feeds all the major rivers of 
Asia.
                                 issues
    On the matter of our recommendations, while there has been a clear 
deterioration in the overall human rights situation in Tibet, I would 
like to raise the following four points that can have grave impact 
during the term of the next Congress and Administration.

1. Religious freedom of the Tibetan people

    Several developments in recent times, which follow decades of 
oppressive policies, indicate that in order to fulfil their political 
agenda, the Chinese authorities are undermining the very existence of a 
genuine Tibetan Buddhist tradition in Tibet.
    These include adopting regulations that give the Chinese Communist 
Party the absolute decision making authority on matters concerning 
Tibetan Buddhism, including promulgating legislation requiring all 
reincarnated Tibetan Buddhist leaders to obtain government approval. 
These measures are aimed at controlling and managing the process of the 
Dalai Lama's next reincarnation, in order to ensure the dominance of 
the Party state in Tibet. Chinese official media reports have confirmed 
that the CCP authorities view the matter of the Dalai Lama's 
reincarnation as ``an important issue concerning sovereignty and 
national security.'' What the Chinese government has done to the 
Panchen Lama, who was kidnapped when he was 5 years old and has no 
longer been seen since then and replaced him with someone appointed by 
the Chinese Communist Party, is a stark reminder of what China intends 
to do.
    Secondly, there has been increased and intrusive interference in 
the affairs of the Tibetan Buddhist monasteries and institutes. The 
most recent case is the demolition process taking place at the Tibetan 
Buddhist Academy of Larung Gar in Tibet--one of the world's largest 
monastic institutions with a population of thousands of Chinese and 
Tibetan practitioners - and the forced expulsion of several hundreds of 
monks and nuns from there. Larung Gar has in recent years become a 
vital center for the study, practice, and promotion of Buddhist 
teachings.
    The most recent demolitions of monks' and nuns' dwellings began in 
July due to restrictions put in place by the Chinese government. 
According to information received from Tibet, hundreds of monks and 
nuns from Golog (Chinese: Guoluo) and Jyegudo (Chinese: Yushu) in 
Qinghai, Ngaba (Chinese: Aba) in Sichuan, and the Tibet Autonomous 
Region were among those forced to leave Larung Gar in late October this 
year. Officials and police arrived from their home areas to escort 
them. Many monks and nuns were compelled to put their thumbprints or 
sign a document which stated the following in Chinese: In accordance 
with the requirements of promoting regulation work in the Serthar 
County Larung Five Sciences Buddhist Academy, I left the Larung Five 
Sciences Buddhist Academy and will, after returning home, as always 
continue to love the country and love religion, and abide by the law. I 
solemnly promise not to return to the Serthar County Larung Five 
Sciences Buddhist Academy, except to carry out relevant formalities 
during large-scale Buddhist activities.''
    If we do not send a strong message to the Chinese authorities on 
this, it could be a precursor to many such demolitions of other Tibetan 
religious institutes.

2. Restrictions of Freedom of Movement

    From 2012, following the imposition of tough new measures 
restricting travel in Tibetan areas since the 2008 protests, Tibetans 
began to face tightening restrictions on their travel abroad, through 
restrictions on the issuance of passports, including to receive 
Buddhist teachings from the Dalai Lama, or to study abroad. This is in 
contrast to the increasing number of Chinese citizens being granted 
passports and being able to travel abroad with ease.
    Since the Dalai Lama is giving an important Tibetan Buddhist 
teaching in India in January 2017, many Tibetans in Tibet wanted to 
travel there. In addition to the already existing restrictions for 
Tibetans in getting a passport, in the last few weeks, Chinese 
officials have confiscated passports from those Tibetans who have 
managed to secure one.
    Some Tibetans who have already arrived in Nepal and India for 
pilgrimage and for attending the Buddhist teachings in January have 
already been ordered to return, and the authorities are as well 
pressuring their families in Tibet.
    China's discriminatory policy on Tibetan freedom of movement also 
includes Tibetan Americans who wish to travel to Tibet for pilgrimage 
or to meet their relatives. The Chinese Embassy and consulates in the 
United States adopt a different processing system for Tibetan Americans 
that includes intensive investigation and often end up with denial of 
visas.

3. Use of Counter-terrorism measures to control Tibetans

    In Tibet, despite the absence of any violent insurgency, an 
aggressive ``counter-terrorism'' drive has been underway resulting in 
the militarization across the Tibetan plateau. By conflating the 
expression of distinct religious and ethnic identities with 
``separatism'', and blurring distinctions between violent acts and 
peaceful dissent, the Chinese government is using counter-terrorism as 
a justification to crackdown on even mild expressions of religious 
identity and culture in Tibet.
    In line with a ``counter-terror'' campaign, the Chinese authorities 
have rolled out new systematic and long-term security measures in Tibet 
as part of an intensified control agenda.
    While rigorous and oppressive measures, including an increase in 
Communist Party personnel at ``grass roots'' levels, have been in place 
since the 2008 protests in the Tibet Autonomous Region (TAR), these 
measures to eliminate dissent and enforce compliance to Chinese 
Communist Party policies are now being increasingly observed in the 
eastern Tibetan areas of Kham and Amdo.
    Since October 2011, Chinese authorities have sent tens of thousands 
of government and party cadres to thousands of villages, religious 
institutions and neighborhood to monitor and surveil local Tibetans, 
organize anti-Dalai Lama themed political indoctrination campaigns, and 
entrench and expand the influence of the CCP in Tibet.

4. H.H. the Dalai Lama and the Tibetan issue

    On the overall issue of Tibet, the position of His Holiness the 
Dalai Lama remains unchanged in key areas. His is commitment to the 
Middle Way is unwavering. He is not seeking independence for Tibet but, 
rather, genuine, meaningful autonomy for the Tibetan people within the 
People's Republic of China reached through a negotiated settlement with 
the Chinese leadership. He has strengthened democratic values within 
the Tibetan community in exile, including in handing over all his 
political authority to the elected Tibetan leadership.

Diplomatic and Political Actions that have worked:

    1. Presidential meeting with His Holiness the Dalai Lama

    Successive Presidents of United States have met with His Holiness 
the Dalai Lama and expressed their support for the Middle Way Approach. 
This sends a very strong signal to the Chinese authorities that the 
Issue of Tibet is on the highest of agenda in US-China relations.

    2. Appointment and the role of Special Coordinator on Tibet

    Having a special coordinator on Tibetan Issues in the State 
Department as mandated by the US Tibet Policy Act of 2002 and its 
annual report on the status of Sino-Tibet negotiations indicates the 
importance that US Administration attaches in resolving the Tibetan 
issue in a non-violent, mutually beneficial negotiated solution without 
pre-conditions.

    3. Hearings and reports of the commissions

    Meetings of His Holiness the Dalai Lama, Sikyong, and the Speaker 
of the Tibetan Parliament in Exile with bipartisan, bicameral 
congressional Foreign Relations Committee; hearings and reports by CECC 
and Tom Lantos Human Rights Commission helps in informing the congress 
of the Tibetan perspective of the situation inside Tibet and possible 
solutions.

    4. Financial Aids

    Financial Aids from State Departments to the Tibetans through 
USAID, PRM and Scholarship Programs for education, health, social and 
economic development of Tibetans helps in the preservation and 
promotion of Tibetan identity.

    5. Bills and Resolutions

    We believe that the introduction of the Reciprocal Access to Tibet 
bill has built some traction in allowing congressional delegation and 
journalists visits to Tibet.

    6. Congressional and State Department visits to Tibet and 
Dharamsala

    The congressional delegation's visit to China and Tibet provided 
first hand understanding of the situation inside Tibet and more 
intimate dialogue with the local leaders. Similarly, visits to 
Dharamsala also sends a strong signal to China.

Suggestions to the new Administration and the Congress:

    1. The United States has played a pivotal role in highlighting the 
human rights situation in Tibet and in encouraging the Chinese 
Government to improve them. Human rights will be respected if China 
implements internal reform. US Government need to publicly express 
concern for the human rights situation in Tibet to send a clear signal 
to China that this is an integral part of US policy on China
    2. Advocate for the release of Tibetan political prisoners. The US 
should advocate for the release of specific Tibetan political prisoners 
languishing in Chinese prisons. In the past, efforts by the United 
States and other governments have led to the Chinese authorities 
releasing some Tibetan political prisoners who were able to come to the 
United States for medical treatment and rehabilitation. My office will 
be pleased to provide some names of Tibetan political prisoners.
    3. An early implementation of the Tibetan Policy Act, including the 
designation of the US Special Coordinator for Tibetan Issues at a 
senior level within the State Department so that the new Administration 
has its contact person on Tibet in place for effective coordination of 
work.
    4. The Reciprocal Access to Tibet Act before the House could also 
help to promote access to Tibetan areas for U.S. officials, 
journalists, and citizens. Currently, travel restrictions imposed by 
the Chinese government on Tibet are more severe than for any other 
provincial-level entity in China. The approval of the Global Magnitsky 
Act by the US Congress will send the right message to Chinese officials 
responsible for human rights violations in Tibet.
    5. The Administration should impress on China the need to establish 
US Consulate in Lhasa.
    6. The incoming President should meet with His Holiness the Dalai 
Lama at the earliest opportunity in keeping with precedents.
    7. The congress and the Administration could raise with the Chinese 
leadership their discriminatory policies towards the Tibetan people, 
particularly in the matters of religious freedom and freedom of 
movement.
    8. The Administration should monitor China's misuse of counter 
terrorism policies in Tibet leading to the denial of fundamental rights 
of the Tibetan people. As and when necessary this needs to be raised 
publicly.
    9. Preserve funding for Tibet-related programs in the Department of 
State & Foreign Operations Appropriations bill, including economic 
development; humanitarian assistance; Tibetan language broadcasts 
through Voice of America and Radio Free Asia; and scholarship and 
exchange programs. These small but indispensable investments in Tibetan 
communities support the Dalai Lama's vision of preserving Tibetan 
identity during these difficult times until a negotiated agreement is 
reached.
    10. The congress should organize more bipartisan, bicameral visits 
to Tibet and Dharamsala.
    11. Above all, proactive support at the highest level of Government 
to encourage the Chinese authorities to resume dialogue to resolve the 
Tibetan issue, as mandated by the Tibetan Policy Act, will eventually 
improve the human rights situation of the Tibetan people.
    I thank you for the opportunity to testify before your Commission 
and look forward to answering any questions you have.
                                 ______
                                 
                                [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                 Prepared Statement of Chen Guangcheng

                            december 7, 2016
    Greetings to the Chair people, to all the human rights 
Congressional representatives, ladies and gentlemen: Hello!
    In China, people know me as, ``the barefoot lawyer:'' despite 
having no formal training as a lawyer, I did the work of a lawyer, 
bringing officials to court and asking that the party respect China's 
own Constitution and laws. As a result, I endured 7 years of 
kidnappings, house arrest, secret detention sites, and imprisonment. 
After I was let out of prison, my family and I were put under illegal 
house arrest under conditions even worse than prison, including 
torture, until I finally escaped.
    My own experience tells me that one should not hold out any hope or 
possibility in the Communist Party. This is a fascist regime that 
destroys the essential goodness of humanity.
    The Communist Party has been persecuting its own people for years. 
Last year it began the infamous 709 crackdown, persecuting human rights 
defenders and lawyers, torturing people and implicating family members 
by association. Some attorneys and activists in detention have been 
forced to make confess guilt in the state-controlled media, and have 
subsequently been sentenced to prison. But some, like Li Heping, Li 
Chunfu, Wang Quanzhang and other attorneys refuse to admit guilt, and 
hence continue to be held illegally. Two weeks ago, Attorney Xie Yang 
was tortured by prison police, and Attorney Jiang Tianyong has been 
disappeared. Activists Huang Qi and Liu Feiyue have been taken by 
public security. Countless netizens have been blocked online, and their 
speech censored.
    Under Party control, the Chinese people have long lived in a state 
of suffering and fear. It should be clear that Communist authoritarian 
control is the enemy of humanity: we must put a stop to its destruction 
of humanity's civilized values.
    On the other hand, America is a great nation that truly stands out 
in its commitment to universal values. There is simply no way to 
compare the US and China on this front. Hence, America must be a model 
for human rights, and a leader in the global push to democracy. The 
American system has the strongest immunity (against corruption), and 
the greatest capability for correcting its mistakes. Democracy, 
freedom, and human rights are America's founding principles. After many 
injurious years of appeasement and self-belittling, the time has come 
for the US to reinvigorate its core values and to protect universal 
human rights.
    I would like to make the following recommendations to the incoming 
administration and Congress regarding human rights:

          1. Correct the mistaken policy of separating trade from human 
        rights. Human rights are like clean water, clean food, and 
        clean air: they are an indispensable part of life, and cannot 
        be separated from anything we do. The essence of the policy of 
        separating trade and human rights is to focus solely on making 
        money, without care to justice or ethics. In addition, the 
        reality is that a country with strong human rights and rule of 
        law is a better business partner for American companies.
          2. In its position as a global leader, should express a 
        position of clear support for the universal values of freedom, 
        democracy, and human rights.When a dictatorial regime uses 
        force to suppress its people, should act decisively to stop it. 
        In addition, we should reconsider NATO's function, to transform 
        NATO from hedgehog quill to heroic sword.

    [NATO is now an organization primarily concerned with its own 
member nations and their security. The US should recognize that 
authoritarian regimes pose an existential threat to democracies 
everywhere. The US, for example, is already experiencing infiltration 
into many areas of civic and government life, including its media, 
academia, government offices, and electoral process by the largest 
dictatorships in the world. If this continues unabated, the US will 
find its democratic institutions substantially weakened. By supporting 
democratic movements through clear statements, the US and NATO will put 
a check to violent repression of innocent people and reclaim the 
importance of universal rights for all.]

          3. Prevent human rights abusing officials from entering the 
        United States. Investigate and where illegality is found, 
        freeze the US assets of Communist Party officials.
          4. Prevent the Communist Party from infiltrating US academia, 
        media, and other institutions.
          5. Demand that the Chinese Communist Party respect the UN 
        International Treaty on Human Rights. Change the policy of 
        speaking with the CCP on issues of human rights behind closed 
        doors .otherwise we will continue the useless conversations we 
        have now.
          6. Ensure reciprocity of visas for journalists, and prevent 
        the CCP from using visas to punish journalists who expose the 
        crimes of the party.

    [At the moment, the US allows roughly 800 journalists from China 
into the US, the majority of whom are from party media outlets, but 
China only allows 100 US journalists into China.]

          7. Invest in tools to get past internet blocking mechanisms, 
        to assist those who seek freedom in getting past the Great 
        Firewall [Internet Berlin Wall]. Establish direct communication 
        with the Chinese people, instead of just with the party.
          8. Establish international, collaborative mechanisms to 
        prevent the Chinese Communist Party from persecuting its own 
        people internally, and from breaking down international 
        procedures externally.

    Great nations have great responsibility. In Chinese there is an 
ancient saying: ``Bring out the best and eliminate the worst under 
heaven.'' This should be the principle to follow. As long as we join 
together, we can banish dictatorships, and make the world a better 
place.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                      Prepared Statement of Bob Fu

        Religious Freedom and Rule of Law Under Xi Jinping 2016

                            december 7, 2016
    Dear Chairman Congressman Smith and Co-Chair Senator Marco Rubio,
    As China regresses into a more Maoist regime, the Communist Party 
continues to place restrictive measures on human rights and religious 
freedom and executes its control over all forms of dissent by arresting 
or otherwise harassing those who oppose the strictures.
    According to current president Xi Jinping, religion must conform to 
and benefit a socialist society. At a national conference on religion 
held in April of this year, he urged his administration to ensure that 
religions ``merge religious doctrines with Chinese culture, abide by 
Chinese laws and regulations, and devote themselves to China's reform 
and opening up drive and socialist modernization in order to contribute 
to the realization of the Chinese dream of national rejuvenation,'' and 
argued that the role of the Party was to ``guide and educate the 
religious circle and their followers with the socialist core values . . 
..''
    His words reinforced a pre-existing nationwide crackdown on 
religious institutions, including an ongoing cross demolition campaign, 
arbitrary arrests of pastors and lawyers, and the suppression of 
Tibetan Buddhists and Uyghur Muslims. Because China Aid receives 
reports on Christian persecution, this summary will spotlight their 
cases as examples indicative of a much wider repression of belief.
    In its 2015 Annual Report, Chinese Government Persecution of 
Christians and Churches in China, China Aid noted a 4.74 percent 
overall increase in persecution, based on how statistics gathered in 
2015 compared to those collected the previous year. The various 
categories accounted for include: number of religious persecution cases 
(up 10.84 percent), number of persecuted individuals (up 8.62 percent), 
number of unjustly detained persons (up 6.14 percent), number of abuse 
cases (up 174.65 percent) and number of abused people (up 91.32 
percent).
    Persecution campaigns made 2016 one of the most tyrannical years 
since the Cultural Revolution. As imprisoned human rights lawyers still 
fight for the right to defend their clients without legal 
repercussions, officials in Zhejiang province carry out the third 
consecutive year of a beautification movement that targets church 
crosses for demolition, Henan province launched a movement focusing on 
forcing ``illegal'' Catholic and Protestant churches to conform to 
socialist ideals, and authorities arrested and detained church members.
    Trials for lawyers rounded up in the 709 incident, the nationwide 
crackdown on human rights defenders named for the day it started, July 
9, 2015, commenced on August 2 with the sentencing of Zhai Yanmin, a 
rights activist who received a three-year suspended prison term for 
coordinating protests against government rule. A day later, a Tianjin 
court condemned Beijing church elder Hu Shigen to seven-and-a-half-
years' incarceration and five years' deprivation of political rights 
for allegedly ``subverting state power'' by using Christianity to 
``spread subversive thoughts and ideas.'' The tribunal presented photos 
of his baptism as evidence of his guilt, and Hu was forced to confess 
to his crimes, after which he accepted his sentence and did not appeal.
    Hu, a Beijing University alumnus and former instructor at the 
Beijing Language Institute, formerly served 16 years of a 20 year 
prison sentence for founding an organization that opposed the Communist 
Party.
    On August 4, Zhou Shifeng was coerced into confessing to his 
crimes. Zhou, a Christian attorney, was arrested on suspicion of 
``subverting state power'' on January 8, 2016. In an attempt to 
publicly authenticate their charges against him, authorities pressured 
Zhang Kai, a human rights lawyer known for his defense of more than 100 
churches affected by the cross demolition campaign, to travel from his 
home in Inner Mongolia, attend the trial, and conduct an interview in 
which he denounced Zhou and the other imprisoned human rights lawyers. 
Zhang later recanted his statements, saying he had been too frightened 
to stand up to the authorities. Consequentially, officials barred him 
from social media and attempted to arrest him again.
    On the night of August 25, 2015, government personnel broke into a 
church in Wenzhou, Zhejiang and took Zhang and his two legal assistants 
into police custody. After holding him incommunicado for six months in 
an unofficial prison known as a ``black jail,'' China forced Zhang to 
confess on television on February 25, 2016. A few days later, he was 
taken into criminal detention and released on bail on March 23. Since 
then, he has lived with his parents in Inner Mongolia.
    Another Christian lawyer, Li Heping, vanished into police custody 
on July 10, 2015, followed by his brother, attorney Li Chunfu, on 
August 1 of that year. Li Heping was formally arrested on January 8, 
2016, on suspicion of ``subverting state power.'' Since their 
disappearance, family members have not been able to contact either of 
the men.
    The cross demolition movement, which began in 2014 as part of a 
beautification campaign known as ``Three Rectifications and One 
Demolition,'' continued in Zhejiang province during 2016. Although 
official rhetoric claims the operation intends to address ``illegal 
structures,'' it specifically discriminates against Christian churches 
and imposes strictures on the crosses that adorn the exterior of their 
buildings. In 2016, the number of crosses demolished surpassed 1,800.
    Zhang Chongzhu, a pastor who was placed under ``residential 
surveillance in a designated location,'' otherwise known as a ``black 
jail,'' in September 2015, was originally held in police custody for 
his opposition to the cross demolitions,. On February 5, he was 
criminally detained for ``stealing, spying, buying, or illegally 
providing state secrets or intelligence to entities outside China.'' He 
was formally arrested on March 9 for the same crime. On May 9, he was 
released.
    Now, Zhang faces a new challenge; on October 29, the Zhejiang 
Provincial China Christian Council and the Zhejiang Provincial Three-
Self Patriotic Movement, China's two state-run Christian organizations, 
expelled him from the clergy and revoked a certificate proving that he 
was licensed to preach. This triggered outrage among local Christians, 
one of whom speculated that the government terminated Zhang Chongzhu in 
order to keep citizens from attending house churches.
    In addition to previous restrictions on religious activity, Henan 
province published a work plan devising to bring ``illegal'' Catholic 
and Protestant churches in line with the Party's ideologies. According 
to the official document, the authorities plan to manage church 
meetings and force the congregations to eradicate all religious symbols 
and become more socialist. The timeline outlined by the official 
document stated the plan was to be implemented on September 4 and run 
until October 15. The government mandated that the village and sub-
district government branches investigate churches, submit reports to 
their superiors, assist the religious affairs bureau in distributing a 
notice about the expected changes to the churches, shut down non-
compliant congregations, and record how satisfactorily they were able 
to complete the job as part of their year-end assessment.
    Prompted by this decision, the Bo'Ai County Religious Affairs 
Bureau issued a notice to a house church. Claiming that the church was 
unauthorized, the bureau ordered it to immediately disband and remove 
any religious materials within three days. They urged the attendees to 
conduct religious activities at the local official churches, with which 
many of them have deep, theological disagreements. Failure to comply 
with these measures will result in further government interference.
    This campaign echoes the new political trend set out in a proposed 
revision of the Regulations on Religious Affairs, which was introduced 
by the State Council earlier this month. The revision introduces 
tighter control on peaceful religious activities, such as punishing 
house church meetings by imprisoning Christians or heavily fining the 
church leaders, forbidding religious adherents from attending 
conferences or trainings abroad, and barring minors from receiving 
religious education. By passing these regulations, China violates its 
own Constitution, which guarantees religious liberty and condemns 
discriminating against religious and non-religious citizens, and 
breaches the country's pledges to adhere to the Universal Declaration 
of Human Rights, the International Covenant on Civil and Political 
Rights, and the United Nations' Convention on the Rights of the Child.
    Paraphrasing and quoting an unnamed expert on the Regulations on 
Religious Affairs, Christianity Today published the following 
statements on October 3 in an article entitled ``Red Tape: China Wants 
to Constrict Christian Activities with 26 New Rules,'' referring to 
China's State Administration on Religious Affairs as SARA:

        The draft law opens with the assurance that all Chinese 
        citizens are free to believe whatever they want and to engage 
        in religious activity--as long as it's within the tighter 
        limits. One Chinese religious policy expert, who asked to 
        remain anonymous, summed up some of what the regulations 
        include:

                <bullet> No religious activities that are not approved 
                by SARA.
                <bullet> No one may provide a venue for religious 
                services that are not approved by SARA.
                <bullet> No one may use their home for religious 
                practices that are not approved by SARA (including home 
                or family Bible studies).
                <bullet> No publishing religious materials without 
                approval from SARA.
                <bullet> No foreign or domestic donations may be made 
                to any religious organization that hasn't been approved 
                by SARA.
                <bullet> No one may call themselves a pastor without 
                the approval of SARA.
                <bullet> No international religious exchanges may 
                happen without the approval of SARA.
                <bullet> No one may study theology at school without 
                the approval of SARA.

        ``As you can imagine, these amendments to the administration of 
        religion in China by SARA would in effect leave no space for 
        the house or unregistered church in China, and will 
        significantly curtail many of the activities of the TSPM 
        [Three-Self Patriotic Movement] as well,'' the expert told 
        ChinaSource.

    In 2015, a major developing case emerged as authorities increased 
pressure on Huoshi Church, the largest house church in Guiyang, Guizhou 
province. Though preluded by a police presence when the church moved 
into a new building in 2014 and the 2015 arrest of Zhang Xiuhong, an 
accountant and chairwoman at the church who was apprehended when she 
withdrew church funds at her beauty shop, the situation escalated when 
Pastor Su Tianfu received an administrative penalty notice on October 
21, 2015. It indicted himself, Zhang and a church member named Liang 
Xuewu for ``changing usage plans'' of the office space the church rents 
for its services and ordered them to stop holding religious activities 
there, despite the church continually reporting its services to the 
government. Originally, the building was approved for business 
operations. When they neglected to heed the orders, officials imposed a 
fine that accumulated 12,960 Yuan (U.S. $2,030) daily.
    Su, who is currently released on bail, has been under constant 
surveillance since December 19 and must use government-arranged 
transportation for all outings. He is expected to stand trial soon.
    Additionally, administrative offices dispatched uniformed and 
plainclothes personnel to raid the church on several occasions. On 
December 9, 2015, Pastor Li Guozhi, better known by his alias, Yang 
Hua, was taken into police custody and sentenced to two consecutive, 
five-day administrative detention terms a day later for the ``crime of 
obstructing justice'' and ``gathering a crowd to disturb public order'' 
after he attempted to prevent officials from confiscating a church hard 
drive. When his wife came to collect him on December 20, she witnessed 
him donning a black hood and being herded into an unlicensed vehicle. 
Upon further inquiry, she learned that her husband had been charged 
with ``illegally possessing state secrets'' and was being transferred 
to another facility for criminal detention. She was not allowed to 
contact him. On January 22, she received a notice announcing his formal 
arrest and changing his charge to ``divulging state secrets.''
    Even with his impending trial, which is expected to take place this 
month, authorities only permitted Yang to convene with his lawyers 
beginning in March. During one meeting, lawyer Chen Jiangang and his 
co-counsel, Zhao Yonglin, noted that he appeared fearful and began to 
suspect that he had been tortured. On their next visit, Zhao 
transcribed an interview with Yang in which he described how the 
prosecutors assigned to his case had stepped on his toes and threatened 
to kill him and harm his family in order to extract a confession from 
him. After hearing this, Chen and Zhao filed a lawsuit against the 
prosecution team and asked that they be criminally punished for ``using 
torture to extort a confession.''
    During one of his pre-trial meetings, Yang requested that Zhang 
Wei, one of the prosecutors in his case, be disqualified from hearing 
the trial on account of his torture allegations. Chen and Zhao have 
furthered this request by submitting a document requesting both the 
disqualification of Zhang and a transferal to a new court.
    In the highest profile case of Christian persecution since the 
Cultural Revolution, China ousted Gu Yuese, chairman of the Hangzhou 
branch of the China Christian Council, from his position as the head 
pastor of China's largest Three-Self Church on January 18. Later that 
month, Gu was arrested on a falsified charge of ``embezzling 10 million 
Yuan (US$1.6 million) in funds,'' although many Christians believe 
authorities incarcerated him for his opposition to the cross demolition 
campaign. On April 1, he was released and placed under ``residential 
surveillance.'' His case demonstrates the rampant spread of religious 
persecution as China clamps down on both house and state-run churches.
    As 2016 progressed, religious persecution continued to intensify. 
In Xinjiang, a politically and ethnically restive region wrought with 
religious tension, authorities apprehended dozens of Christians in the 
last two months. One of them, Ma Huichao, was taken from her home in 
September, where she and four other Christians were gathering for a 
church service. As a result of the service, she was charged with 
``gathering a crowd to disturb public order,'' and her trial of the 
first instance commenced in mid-November. According to Li Dunyong, her 
defense attorney, he was barred from pleading innocent on her behalf. 
Currently, the court is adjourned.
    Recently, two Hong Kong residents, Lin Haixin and his wife, 
vanished into police custody for running a church that specialized in 
offering assistance to individuals suffering from addictions and mental 
health problems. The church was raided, and officials confiscated its 
computer and religious materials, banned it from holding religious 
services and dispersed Christians gathered there.
    For two days, local Christians tried unsuccessfully to contact 
them. Some speculate that they were taken away for holding so-called 
``illegal religious activities'' without registering.
    Concerns over the safety of human rights lawyers spiked in the past 
weeks as Jiang Tianyong, a prominent human rights lawyer turned 
activist following his disbarment in 2007, disappeared, believed 
detained. He contacted his wife shortly before boarding a train from 
Changsha to Beijing, after which no one has been able to successfully 
reach him. He had been returning from a trip to visit the wife of Xie 
Yang, another human rights lawyer who was imprisoned during the lawyer 
crackdown last year, and helped her petition for his release. In the 
past, Jiang has been incarcerated for his work and suffered torture at 
the hands of the authorities.
    On the morning of November 29, the brother of veteran human rights 
activist Peng Ming received a call from prison authorities saying that 
Peng had suddenly collapsed while watching television and was found 
dead. However, three days earlier, Peng had received a visit from his 
brother, who reported that the prisoner was in satisfactory health. 
When he arrived at the hospital and tried to place a call to his 
sister, who lives in California, officials took the phone from him and 
related their version of the story. Peng's family has since demanded an 
autopsy to confirm the cause of his death, and the Chinese government 
has warned them not to travel to China for the funeral.
    At the time of his death, Peng was serving a lifelong prison 
sentence that began on May 28, 2004, when Chinese agents lured him into 
Burma while he was visiting his parents in Thailand and abducted him. 
After arriving in China, he was charged with leading a terrorist 
organization and kidnapping and possessing counterfeit money and given 
a life sentence. Upon investigation, the U.N. Working Group on 
Arbitrary Detention concluded in 2005 that authorities arbitrarily 
detained Peng, violating his right to freedom of expression and 
association.
    China is unwilling to commit to furthering religious freedom and 
human rights, which caused both a significant demise of human rights 
under the Xi Administration. Western policies can hold the country 
accountable for abuses of basic freedoms.
    It is time for the West to shift their paradigm from appeasing 
China to truly principled engagement. Like what happened before in the 
West during Hitler's rule of Germany in the 1930s, the current policy 
of ignoring China's anti-democratic system of governance in pursuit of 
economic opportunity will likely produce irreparable damage for the 
fundamental interests of the free world.

    Recommendations:

    I urge the Trump Administration and members of Congress, including 
President Trump himself, to meet with religious leaders and family 
members of prisoners of conscience and visit religious sites- 
especially churches, mosques and Tibetan Buddhism temples when visiting 
China in order to:

        1. Raise cases not only behind doors, which has proved non-
        effective so far, but in public as well. Look at what happened 
        to the prompt release of the ``China feminist 5'' after 
        interventional outcry, including public demands by Secretary 
        John Kerry and United States Ambassador to the United Nations 
        Samantha Power.
        2. Use multi-faceted approaches to religious freedom and human 
        rights. The ``human rights dialogue'' mechanism has failed, be 
        it bilateral or multilateral. After all, FoRB is a universal 
        value. If the Chinese regime only sees the West as interested 
        in talking about this issue behind closed doors in a 
        compartmentalized way, it's nothing but a green light for the 
        abuses to continue.
        3. Adopt a concerted, internationally coordinated effort by 
        working jointly with our allies in Europe and other regions. 
        The release of imprisoned human rights lawyer Zhang Kai and 
        Pastor Wen Xiaowu, who were freed after the Communist Party 
        received enormous international pressure, are good examples of 
        how well this method works.
        4. Pressure China to stop committing violations of 
        international law by overstepping their own nation's boundaries 
        to detain dissidents such as Jiang Yefei and Dong Guangping, 
        who were taken back to China from a detention center in 
        Thailand; Peng Ming, who was kidnapped after being lured into 
        Burma by Chinese special agents and died on November 29 while 
        serving a life sentence; and five Hong Kong booksellers, who 
        disappeared into police custody for selling gossip books about 
        the private lives of Chinese officials.

    In conclusion, China continuously violates its own laws and 
international statutes safeguarding religious freedom and human rights 
in favor of promoting a socialist agenda, forcing dissidents and 
religious devotees to choose between certain persecution and 
disregarding their deeply-held beliefs. Additionally, it prosecutes 
lawyers who attempt to defend the rights of religious practitioners and 
activists, completely disregarding the rule of law. International 
governments must publicly and proactively organize efforts to persuade 
China to free those it unjustly holds behind bars and refrain from 
unproductive, behind-closed-doors conversations on these matters. 
Should the international community fail to do this, they will be 
communicating to China that they care more about trade than human 
rights, permitting these abuses to continue.
                                 ______
                                 

            Suggestions on the Future Sino-US Economic and 
                    Trade Relations and the Reasons

                  Prepared Statement of Wei Jingsheng

                            december 7, 2016
    When Donald Trump becomes president of the USA, he is planning to 
abolish the TPP and began a trade war with China in order to save the 
US economy. Some people say that this is a disaster, I would say that 
this is the right way that should have started even earlier. The 
reality after sixteen years well explain my position: granting China 
permanent MFN status, that is PNTR, was a huge mistake. It did not 
promote the development of the US economy, but was a blood transfusion 
from the USA to the Chinese economy. It gave China the opportunity to 
engage in trade war with the United States.
    The reason is as follows. The so-called free trade, refers to a 
unified law based on the domestic market, thus allowing free trade. 
Such free trade can be carried out normally between countries with 
similar legal systems. There cannot be normal free trade between 
countries with completely different legal systems.
    For example, after trade with China liberated, there were two main 
problems: one was cheap labor, one was its uncertain laws that always 
change.
    Since Chinese law does not guarantee human rights, it is able to 
keep labor prices at a very low level. This has led to the relocation 
of US companies to foreign countries, while also allows Chinese goods 
entering the US market with low prices, resulting in unfair 
competition. It is an important cause of unemployment in the United 
States.
    China's precarious legal system creates serious non-tariff 
barriers. Any local government can develop their own laws and 
regulations, without the need to implement the signed treaties and 
agreements between the Chinese central government and foreign 
countries. So they can actually close their targeted import market. 
Coupled with the manipulation of the currency by the Chinese central 
government, these actions increased exports and created a huge trade 
surplus for China. This is an important reason causing the economic 
recession in the USA.
    Some people say: for the USA, fighting a trade war with China will 
end in defeat, at best a lose-lose result. I think such statements are 
to confuse the US policy makers. I think the USA will win this trade 
war, while China can only succumb to the rules developed by the United 
States, otherwise it will accelerate the collapse of the Chinese 
Communist regime. My reasons are as follows.
    First: Now the vast majority of goods are in the buyers' markets. 
The United States holds the markets, thus it has the power to develop 
rules, instead of forcing itself to comply with that so-called global 
free trade rule that cannot be enforced. The United States can 
formulate its own fair trade rules, to replace the invalid so-called 
free trade rules.
    Second: The Chinese domestic market is narrow and cannot afford the 
disaster of losing the US market. So China can only compromise on the 
rules thus to protect part of the market share.
    Third: In the past, due to over-expansion of export production of 
shoddy goods, the quality of Chinese enterprises is very poor. In order 
to adapt to a fair market in the competition, Chinese companies must 
quickly upgrade. Thus there will be a great demand for technology and 
services from the United States to open up the import market in the 
USA. This will help expand US exports and reduce its trade deficit with 
China.
    Fourth: After improving human rights in China, the income of the 
Chinese working class will increase, therefore the domestic consumer 
market will expand. This expansion would benefit US exporters after 
fair trade, thereby reducing the US trade deficit and even eliminating 
it.
    So I think that the USA will win this trade war, and in the long 
run will also be beneficial to the economic normalization in China. 
China must accept and should accept it.
    Thank you!
                                 ______
                                 

                  Prepared Statement of Rebiya Kadeer

                            december 7, 2016
    Since my release from a Chinese prison in 2005, I have reported to 
the Commission the continuing human rights violations targeting the 
Uyghur people. As the Commission has noted in its annual reports, 
political freedoms in East Turkestan are among the most limited in 
China. The right to association and assembly is prohibited and freedom 
of speech is punished severely, as the case of imprisoned Uyghur 
academic Ilham Tohti illustrates. Economic discrimination, erosion of 
language rights and religious restrictions add to the already 
depressing condition of Uyghur human rights.
    President Xi Jinping has attempted to codify these violations in a 
series of repressive laws, such as the ones on counter-terror and 
cybersecurity. Implementation measures of the counter-terror law at the 
regional level in East Turkestan are a clear indicator of who China 
intends to target with these draconian measures.
    Nevertheless, China believes it should go further with its 
repression. Arbitrary detentions, forced disappearance and extra-
judicial killings continue. Recent media reports indicate the Chinese 
government has implemented a policy to confiscate passports in East 
Turkestan to limit the international movement of Uyghurs. This is the 
formalization of a policy that Uyghur human rights groups have 
documented since 2006.
    Islam is a cornerstone of the Uyghur identity. China has adopted a 
series of religious laws at the national and regional level (2015) that 
curb Uyghur rights to freedom of worship. Private communal religious 
education has been targeted for several years under these measures; 
however, this year Chinese authorities adopted rules to report parents 
who encourage their children to undertake religious activities
    During the George W. Bush and Barack Obama administrations my 
colleagues and I have worked hard to bring Uyghur issues to the 
attention of the U.S. political community. Our organizations regularly 
brief State Department officials and legislators at the U.S. Congress. 
We have managed to mainstream the Uyghur issue into U.S. government 
reporting on human rights.
    Most notably, I was privileged to meet President George Bush on two 
occasions; the first time in June 2007 and the second in July 2008. 
These meetings placed Uyghurs at the center of U.S. policy concerns 
over human rights in China.
    China's heavy handed policies towards Uyghurs are creating 
instability and desperation among the Uyghur people. These policies 
have become self-fulfilling in some respects, as some Uyghurs have 
become radicalized in their effort to oppose China's repression. The 
United States should be concerned about these developments as it is in 
the nation's interest to support the democratic aspirations of the 
overwhelming majority of Uyghurs. Stability in East Turkestan, China 
and the Central and East Asian regions offers the opportunity to spread 
American values such as freedom and rights.
    The administration of President-elect Donald Trump should continue 
support for Uyghur democrats and step up public concern over rights 
conditions in East Turkestan with Chinese officials. Any sign that the 
United States is ready to relinquish its commitment to raising human 
rights concerns in favor of achieving policy gains elsewhere will be a 
victory for China.
    Furthermore, the incoming administration should exercise extreme 
skepticism regarding China's narrative that increased militarization 
and securitization in East Turkestan are justified in fighting radical 
Islam. The repression that accompanies security measures enables China 
to keep firm control of the region and suppress legitimate Uyghur 
claims for greater political, economic, social and cultural freedoms. 
The Trump administration should understand the situation in East 
Turkestan in similar terms to the Tibet. It is a struggle for cultural 
survival in the face of formidable assimilative actions by the state.
    Let us be clear. Pressure works. My presence here today is 
testament to the success of pressurizing Chinese officials. My 
colleagues and I will continue to put forward the Uyghur case to the 
international community. It is the responsibility of concerned 
governments to take this case directly to China and urge reform. The 
Uyghur people greatly appreciate the United States' support of our 
plight.; however, we ask the incoming administration to publicly raise 
the Uyghur issue with China.
    In conclusion, I offer these recommendations to the Trump 
administration:

          1. Prioritize Uyghur issues, especially during the Human 
        Rights Dialogue and the Strategic and Economic Dialogue.
          2. Urge China to allow foreign diplomats and journalists 
        unrestricted access to East Turkestan to independently document 
        the conditions in the region.
          3. Call on China to free Ilham Tohti and his students and all 
        writers and reporters.
          4. Ask China to change its repressive policy, which is root 
        cause of all bloody incidents in Uyghur region.
          5. Meet Uyghur leaders and activists at the White House.
          6. Create a special coordinator office at the State 
        Department for the Uyghurs.
                                 ______
                                 
                                  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

    This has been another dark and difficult year for Chinese rights 
defenders and democracy activists. Under President Xi Jinping's version 
of the rule by law, the law is being used to more severely curb the 
freedom of expression, civil society, religious freedom, and other 
fundamental rights.
    Chinese courts have convicted rights activists and lawyers of 
``subversion of state power'' for simply seeking to represent religious 
groups, petitioners, and democracy advocates.
    China's diverse religious communities faced even more restrictions, 
as new regulations, and a ``sinicization'' campaign, will further 
politicize religious life and lead to more repression.
    In Hong Kong, mainland China's political interference and its 
abduction of booksellers threatens the rule of law and Hong Kong's 
promised autonomy, contributing to a growing climate of insecurity.
    Internationally, China continues to push a relativistic version of 
human rights, characterizing universal values as ``Western'' values 
that do not apply to China's national situation.
    The next Administration faces major challenges in dealing with 
China. A new approach is needed that learns the lessons of the past and 
listens to those who have suffered prison and persecution to advance 
fundamental freedoms in China.
    The problem is that U.S. diplomacy is stuck with policies that no 
longer match Chinese realities. For the past two decades, U.S. policy 
was based on the belief that China's growing prosperity would bring 
political reforms and the rule of law. We focused on integrating China 
into the international system, ignoring clear evidence that China, 
under the Communist Party's leadership, would play by its own rules.
    China has not become a ``responsible stakeholder'' in the 
international system as predicted. Quite the contrary, despite decades 
of remarkable economic growth, Beijing's leaders are increasingly 
dismissive of ``Western influence'' and hostile to both free societies 
and democratic capitalism.
    A strategy of engagement through trade, investment, and people-to-
people exchanges has not lead to a freer China and remains cold comfort 
to China's repressed human rights lawyers, religious and ethnic 
minority groups, journalists, and civil society leaders.
    The U.S. must recognize that China's internal repression drives its 
external aggression and develop new policy approaches that intertwine 
our principles and interests in the pivotal Asia-Pacific region.
    Working with the Congress, the next Administration should be 
prepared to bolster U.S. strategic advantages in the Asia-Pacific. This 
will mean improving military readiness, insisting on freer and fairer 
trade, strengthening relations with regional partners, and making more 
robust commitments to advancing democratic institutions, human rights, 
and the rule of law.
    This last point will require the U.S. to push China to embrace 
greater transparency and better adherence to universal standards. It 
will require the next Administration to shine a bright light on human 
rights abuses and level meaningful sanctions in response to these 
abuses. The U.S. must also find ways to support China's reformers, 
dissidents, and its champions of liberty and the rule of law.
    The bipartisan Congressional-Executive Commission on China (CECC), 
which we cochair, recently issued its 2016 Annual Report with specific 
recommendations for ways to pursue human rights and the rule of law 
within U.S.-China relations.
    This report is the ``gold standard'' of human rights reports on 
China. I want to publicly commend the CECC staff for their efforts 
producing the report. It is a big task and I appreciate their hard 
work. The report should be required reading for Members of Congress 
interested in China, journalists writing on China, and for 
Administration officials looking to develop strategies to engage with 
China.
    The need for principled and consistent American leadership is more 
important than ever, as China's growing economic clout, and persistent 
diplomatic efforts, have succeeded in dampening global criticism of its 
escalating repression and failures to adhere to universal standards.
    We owe a new approach to Liu Xiaobo, Li Heping, and the thousands 
of other suffering prisoners of conscience. And, we owe it to future 
generations of Americans, whose security and prosperity will depend on 
a U.S.-China relationship that is open and transparent, free of 
censorship and persecution, based in adherence to universal standards 
and, hopefully; increasingly democratic.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
        Cochairman, Congressional-Executive Commission on China

                            december 7, 2016
    Thank you Chairman Smith and thank you to all of the witnesses 
gathered here today--this is an impressive group of men and women who 
have important stories to share about their own personal suffering and 
that of their family members and associates at the hands of the Chinese 
government and Communist Party. Their experiences must not be viewed in 
isolation, rather they are representative of untold numbers of other 
Chinese, Tibetans and Uyghurs who daily face repression. Today I joined 
Rep. Smith in sending a letter to the Chinese Ambassador to raise our 
concern and seek additional information about a spate of detentions 
involving prominent Chinese human rights advocates, as well American 
citizen Sandy Phan-Gillis who has been arbitrarily detained for twenty-
one months now--I submit a copy of that correspondence for the Record.
    Before going any further, I'd like to take a moment at this 
hearing, the last CECC hearing of the 114th Congress, to recognize 
Chairman Smith for his capable and principled leadership of the 
Commission. He is an unrelenting advocate for human rights and rule of 
law in China and around the globe and I look forward to continuing to 
partner with him in the new Congress--because as today's testimony will 
no doubt make clear, the mandate and mission of this Commission is as 
vital as ever.
    The Commission's recently released Annual Report painted an 
undeniably bleak picture regarding the deterioration of human rights 
and the rule of law in China, with especially grave consequences for 
civil society, religious believers, human rights lawyers, and labor 
activists. Since the Report's release in October 2016, those abuses 
have continued apace in the last two months.
    As the Report documents and as new stories from the last several 
weeks underscore, Beijing has become increasingly brazen in exerting 
its extraterritorial reach. This was especially true in the outrageous 
abductions of the Hong Kong booksellers last year--including Swedish 
national Gui Minhai who is still being held by Chinese authorities at 
an undisclosed location--and now more recently in China's unprecedented 
intervention in Hong Kong's legal system in the cases surrounding two 
democratically elected politicians who won seats in the Legislative 
Council on platforms calling for democratic self-determination for Hong 
Kong. The ripple effects of this ruling are not fully known yet as the 
Hong Kong government has now taken additional steps targeting 
opposition lawmakers. This is gravely concerning and something which 
the Commission, and the Congress, will be watching closely in the 
coming year especially as it relates to the Hong Kong Policy Act.
    Returning to the focus of today's hearing, we are at a critical 
juncture in U.S.-China relations, and there is much wisdom to be 
gleaned, for the incoming administration, from dissident voices.
    December will mark fifteen years since China gained entry to the 
World Trade Organization. It is past time to take stock of our approach 
and recognize that despite what proponents at the time believed would 
happen, China has in fact used the international rules-based system to 
fuel vast economic growth, while further restricting freedom and 
increasing repression. Quite simply, many of the principles which have 
undergirded U.S.-China relations during Democrat and Republican 
administrations alike in recent decades have not yielded the desired 
outcomes.
    A perennial critique from those who care about human rights issues 
has been that the U.S. foreign policy apparatus risks ghettoizing human 
rights concerns, only giving them the prominence they merit during 
infrequent, and often ineffective, human rights dialogues and then 
relegating these issues to the sidelines in high-level bilateral 
engagement.
    The Obama administration struggled to integrate human rights issues 
at the highest levels sending unmistakable signals early on, as was 
famously reported during then Secretary Clinton's inaugural trip to 
China in 2009 that human rights issues, quote, ``can't interfere with 
the global economic crisis, the global climate change crisis and the 
security crisis.'' Words have consequences, midlevel appointees at the 
State Department and elsewhere take them to heart. As such, it will be 
critical, during the early days of the new administration, for the 
Secretary and other senior diplomats to put down markers on these 
issues which are of central import not only to the Chinese people, but 
to U.S. national interests. For as history has shown us, where rule of 
law fails to take root, where human rights abuses are committed with 
impunity, where international obligations are violated, the U.S. should 
not expect to find a responsible global stakeholder.
    I look forward to hearing from our witnesses on this important 
topic. Today's hearing was scheduled to coincide with the commemoration 
of Human Rights Day this weekend, and also with the sixth anniversary 
of the awarding of the Nobel Peace Prize to Chinese dissident and 
writer Liu Xiaobo--an honor he has not been able to rightfully claim 
given that still today he languishes unjustly in prison, serving an 
eleven-year sentence handed down for his essays criticizing the Chinese 
government.
    The U.S. must commit anew to standing with China's reformers and 
dissidents, embracing their aspirations and consistently pressing the 
Chinese Government and Communist Party to respect basic human rights 
and uphold the rule of law. I look forward to today's testimony and 
policy recommendations.

                       Submissions for the Record

                              ----------                              


   Statement Submitted for the Record by Enghebatu Togochog, of the 
      Southern Mongolian Human Rights Information Center (SMHRIC)

                            december 7, 2016
    Dear Chairperson Christopher Smith, Co-Chair Marco Rubio and 
distinguished members of the Commission,
    It is my great honor to have this opportunity to bring to your 
attention the deteriorating human rights conditions and worsening 
humanitarian crisis in the Mongolian areas in China.
    14 years ago, on August 5, 2002, on behalf of the Southern 
Mongolian Human Rights Information Center (SMHRIC), I testified before 
the Commission and brought to the attention of the Commission the 
specific human rights violation cases including the cases of political 
prisoners Mr. Hada, Mr.Tegexi and the Chinese authorities' state-
sponsored forced displacement of Mongolian herders from their ancestral 
lands.
    We are truly grateful to the Commission for its great effort in the 
past 14 years to raise public awareness of human rights issues of the 
Mongolian people by including a great deal of information we provided 
into the Commission's annual reports as well as updating its political 
prisoner database with the cases of Mongolian dissidents and activists 
who have been arrested, detained and imprisoned by the Chinese 
authorities for promoting and defending their basic human rights and 
fundamental freedoms.
    Yet, 14 years later today, human rights situations of the Mongolian 
people in China have gone from bad to worse. Mr. Hada, President of the 
Southern Mongolian Democratic Alliance, is still under house arrest in 
an apartment owned and guarded by the Inner Mongolia Autonomous Region 
Public Security authorities, after serving the full term of 15 years 
imprisonment and an additional 4-year extrajudicial detention.
    Despite the Chinese authorities' cruel torture and inhumane 
treatment in the past 21 years, Hada has consistently refused to admit 
that he committed any crime. Recently Hada completed his written appeal 
to the Chinese Supreme People's Court, demanding the Chinese 
authorities retry his case for the Inner Mongolia Autonomous Region 
Public Security authorities illegally sentencing him to 15 years in 
prison, holding him for another 4 years of extrajudicial detention, and 
maltreating and persecuting him and his family members.
    Hada's family members including Ms. Xinna and son Mr.Uiles are 
still under tight surveillance and subjected to constant harassment by 
the Chinese Public Security and State Security authorities after 
spending multiple and extended period of extrajudicial detentions for 
defending their rights and refusing to cooperate with the authorities.
    Xinna, was arrested on December 4, 2010, on a trumped-up charge of 
``involvement in illegal business,'' referring to her Mongolian Studies 
Bookstore. In April 2012, she was sentenced to three years in prison 
with five years reprieve on the same charge.
    In 2002, the then 17-year-old Uiles, was arrested and sentenced to 
two years in prison for another trumped-up case of ``involvement in 
robbery.'' On December 5, 2010, Uiles was arrested for ``illegal drug 
possession.'' After nearly a year of detention, he was discharged but 
was placed under ``residential surveillance,'' a form of house arrest.
    Another case we would like to highlight is the case of Ms. 
Huuchinhuu Govruud, a human rights defender, dissident writer and 
activist. A month ago, Huuchinhuu died of cancer at the age of 61 in 
her home place of Tongliao Municipality. Until her last breath, at her 
deathbed she had been monitored and guarded by Chinese State Security 
personnel around the clock for her ``possible threat to the national 
interest and state security of China.''
    Huuchinhuu's son, and only family member, Mr. Cheel Borjigin, 
himself has also been diagnosed with brain cancer and is receiving 
chemotherapy in Minneapolis, the United States. As an outspoken critic 
of the Chinese Government, returning to visit his mother had been 
totally impossible for Cheel. His multiple requests to the Chinese 
Government to allow his mother to come to the United States for medical 
treatment have been turned down.
    In early November 2010, Huuchinhuu was arrested by the Chinese 
authorities for rallying the Mongolians via the Internet to cheer for 
the scheduled release of Hada. After nearly two years of enforced 
disappearance and extrajudicial detention, Huuchinhuu was placed under 
house arrest in one of her relatives' residences in Tongliao 
Municipality. She was denied the right to communication, including by 
Internet, phone access and postal service.
    On November 28, 2012, Huuchinhuu was tried behind closed doors and 
pronounced guilty by the Tongliao Municipality People's Court for 
``providing state secrets to a foreign organization.'' Since then, she 
has virtually been placed under indefinite house arrest.
    In 2007, she was denied a passport for her ``possible threat to the 
national interest and state security of China.'' Since then, her 
requests to visit her son in the United States and receive medical 
treatment abroad have consistently been rejected by the Chinese 
authorities.
    Mr. Chairman, over the past 14 years, hundreds other Mongolian 
dissidents, activists and writers have been arrested, detained, sent to 
jail and placed under house arrest for expressing their political 
views, promoting and protecting freedom of speech, freedom of press and 
freedom of assembly.
    In addition to these cases of Mongolian political prisoners, 
dissidents and activists, here I would like to turn to the worsening 
humanitarian crisis unfolded in rural Mongolian communities as a direct 
result of the Chinese authorities' intensifying economic exploitation, 
resource extraction, cultural eradication and environmental destruction 
in Mongolian areas. The very survival of the Mongolians as a distinct 
people is threatened. Their right to maintain their traditional way of 
life, and their right to access their land, water and other resources 
are completely denied. The Mongolians who maintained their pastoralist 
way of life for thousands of years are now forced by the Chinese 
authorities to give up their traditional life-style to give way to 
expanding Chinese encroachment.
    Since 2001, the Chinese government has implemented the so-called 
``Ecological Migration'' policy in rural Mongolian pastoralist 
communities. This policy was officially instituted to forcibly relocate 
the entire Mongolian pastoralist population from their ancestral 
grazing lands to the predominantly Chinese populated agricultural and 
urban areas in the name of ``protecting the grassland eco-system'' and 
``improving the living standard of rural communities.''
    Another policy adopted for the purpose of putting an end to the 
Mongolian traditional way life was the ``Livestock Grazing Ban'' (or 
``jin mu''). Under this policy, Mongolian herders grazing livestock on 
their own pastures were considered criminals and subjected to large 
fines or confiscation of their livestock.
    Mr. Chair, when I testified before the Commission in 2002, these 
policies were just adopted. 14 years later today, these policies 
achieved their determined goal with the desired outcome: putting to an 
end to the millennia-old nomadic civilization within the borders of 
China.
    According to a statement posted on May 30, 2012 on the official 
website of the Central People's Government of the People's Republic of 
China, the State Council Steering Committee meeting hosted by Chinese 
Premier Wen Jiabao passed the ``Twelfth Five-Year Plan for the Project 
on Resettling Nomadic People within China.'' The announcement marks a 
major and seemingly final step toward eliminating the remaining 
population of nomad herders and eradicating the thousands of years old 
nomadic way of life in China.
    According to the statement, the Twelfth Five-Year Plan aimed to 
resettle the remaining nomad population of 246,000 households or 1.157 
million nomads by the end of 2015. The socio-economic and political 
purposes of the plan were stated ``to accelerate the development mode 
shift of animal husbandry and grassland eco-system protection in 
pastoralist areas, to maintain ethnic harmony and frontier stability, 
and to lay a firm foundation for building an all around prosperous 
society.''
    Another earlier statement posted on August 3, 2011 on the Chinese 
State Council website states that the Chinese Ministry of Finance 
allocated a special fund of 1.7 billion Yuan to the project of 
resettling nomadic herders particularly in ``Xinjiang (including 
Xinjiang Development Corps), Inner Mongolia and Tibet.''
    With the Mongolian out, now it is time for the Chinese to be in. In 
2009, the Chinese Central Government announced in that the Mongolian 
regions became the largest ``energy base of China.'' Chinese extractive 
industries immediately started to rush to the Mongolian grasslands to 
open up coal, gas, oil, and other minerals, not only destroying the 
natural environment, but also escalating the tension between the 
Chinese and the Mongolians.
    Tensions have escalated between the Mongolian herders and the 
Chinese authorities as clashes took place almost on a daily basis. In 
2011, the brutal killing of a Mongolian herder named Mergen by a 
Chinese mining truck sparked a large-scale, region-wide protest by 
Mongolian herders and students. Chinese authorities mobilized the 
People's Liberation Army and large numbers of police forces to 
crackdown on the protest.
    Since then violent clashes have been widespread between Mongolian 
herders, who are attempting to defend their land, and Chinese miners, 
who open up mines recklessly to destroy the grassland for profit. 
Defending the interest of the Chinese miners and settlers, Chinese 
authorities are using excessive force, including police and prison 
system to crack down on the Mongolians. Many herders who defended their 
land and demand justice have been assaulted, injured, hospitalized, 
arrested, detained, and sent to jail.
    As a result of large-scale unregulated mining, unscrupulous 
resource extraction and uncontrolled agricultural practices by the 
Chinese, Mongolian grassland ecosystem has seriously been destroyed; 
lakes and rivers are dried up; underground water is depleted; air and 
water is heavily polluted; the Mongolians herders who have been kicked 
out of their land have become landless and homeless on their ancestral 
land.
    In response to these humanitarian crisis and environmental 
destruction, Mongolian herders are standing up to defend their right to 
survival. In the past year alone nearly 80 major protest and clashes 
are reported, and no less than 1000 herders have been arrested, 
detained, and sent to jail for defending their land.
    We ask the Commission to continue to pay closer attention to the 
development of deteriorating human rights situations and deepening 
humanitarian crisis in the Mongolian areas of China, and pressure the 
Chinese Government to take a prompt action to prevent the situations 
from becoming worse.
    Thank you.

    Enghebatu Togochog
                                 ______
                                 
                                  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
        Dissidents Who Have Suffered for Human Rights in China: 
                     A Look Back and a Look Forward

                            december 7, 2016

                          Witness Biographies

    Chen Guangcheng, Chinese legal advocate; Distinguished Visiting 
Fellow, Institute for Policy Research and Catholic Studies, Catholic 
University

    Mr. Chen Guangcheng is a Chinese legal advocate and activist. Mr. 
Chen is from rural China, where he advocated on behalf of people with 
disabilities, and exposed and challenged abuses of population planning 
officials, including forced abortions and sterilizations. Mr. Chen was 
imprisoned for his activism for four years. Following an additional two 
years of extrajudicial confinement at his home, Mr. Chen escaped in 
2012 and came to the United States with his family. His courageous 
escape from China is detailed in his 2015 memoir, ``The Barefoot 
Lawyer: A Blind Man's Fight for Justice and Freedom in China.'' In 
addition to his position at the Catholic University, Mr. Chen is also a 
Senior Distinguished Advisor to the Lantos Foundation for Human Rights 
and Justice.

    Penpa Tsering, Representative of His Holiness the Dalai Lama, 
Office of Tibet, Washington, DC

    Mr. Penpa Tsering is the Representative of the Office of Tibet in 
Washington, DC. He was born in 1967 in Bylakuppe, south India and is a 
member of the Tibetan Parliament. He studied at the Central School for 
Tibetans, Bylakuppe, and topped the merit list in Class XII. He 
graduated with an Economics Major from the Madras Christian College, 
Chennai. During his student days, he served as the General Secretary of 
both the Tibetan Freedom Movement and Nigerian Tibet Friendship 
Association. Later he served as the General Secretary of the Central 
Executive Committee of Do-mey. He then worked as the Executive Director 
at the Tibetan Parliamentary and Research Centre in New Delhi from 
2001-2008 before being sworn in as the speaker of the 14th Tibetan 
Parliament in 2008. Penpa Tsering was elected to the 12th, 13th, and 
14th Tibetan Parliament-in-Exile. He was elected as the Speaker of the 
14th Tibetan Parliament-in-Exile with Mr Karma Choephel on 31 May 2006. 
During the 15th Tibetan Parliament-in-Exile in 2011, he again held the 
Speaker's post.

    Yang Jianli, President, Initiatives for China/Citizen Power for 
China

    Dr. Yang Jianli is President of Initiatives for China/Citizen Power 
for China. Dr. Yang is a scholar and democracy activist internationally 
recognized for his efforts to promote democracy in China. He has been 
involved in the pro-democracy movement in China since the 1980s and was 
forced to flee China in 1989 after the Tiananmen Square massacre. He 
holds Ph.Ds in mathematics from the University of California at 
Berkeley and in political economy and government from Harvard 
University's Kennedy School of Government. In 2002, Dr. Yang returned 
to China to support the labor movement and was imprisoned by Chinese 
authorities for espionage and illegal entry. Following his release in 
2007, he founded Initiatives for China, a non-governmental organization 
that promotes China's peaceful transition to democracy. In March 2010, 
Dr. Yang co-chaired the Committee on Internet Freedom at the Geneva 
Human Rights and Democracy Summit.

    Bob Fu, Founder and President, ChinaAid Association

    Pastor Bob Fu was a leader in the 1989 student democracy movement 
in Tiananmen Square and later became a house church pastor. In 1996, 
authorities arrested and imprisoned Pastor Fu and his wife for their 
work. After their release, they escaped to the United States and, in 
2002, he founded the ChinaAid Association. ChinaAid monitors and 
reports on religious freedom in China and provides a forum for 
discussion among experts on religion, law, and human rights in China. 
Pastor Fu is frequently interviewed by media outlets around the world 
and has testified at U.S. congressional hearings. He has also appeared 
before the European Parliament and the United Nations. Pastor Fu holds 
a double bachelor's degree from People's University and the Institute 
of Foreign Relations, and he has taught at the Central Party School in 
Beijing. In the United States, he earned a master's degree from 
Westminster Theological Seminary, where he is now working on his Ph.D.

    Wei Jingsheng, Chairman, Overseas Chinese Democracy Coalition

    Mr. Wei Jingsheng is a long-time leader of the opposition against 
the Chinese Communist dictatorship. He was sentenced to jail twice for 
a total of more than 18 years due to his democracy activism, including 
a groundbreaking and well-publicized essay he wrote in 1978: ``The 
Fifth Modernization--Democracy.'' He is a winner of numerous human 
rights awards and the author of the book ``The Courage to Stand Alone--
Letters from Prison and Other Writings.'' After his exile to the United 
States in 1997, he founded and has been the chairman of the Overseas 
Chinese Democracy Coalition which is an umbrella organization for many 
Chinese democracy groups, with members in dozens of countries. He is 
also the president of both the Wei Jingsheng Foundation and the Asia 
Democracy Alliance.

    Wang Xiaodan (Danielle Wang), Falun Gong practitioner and daughter 
of former political prisoner Wang Zhiwen

    Ms. Wang Xiaodan was born in Beijing, China. Danielle Wang began 
practicing the exercise and meditation system Falun Gong in her youth 
with her father, Wang Zhiwen. In 1998, she moved to America for her 
studies and the following year the Chinese Communist Party began its 
persecution of Falun Gong practitioners. This put her father in prison 
and set her on the path of calling for help in hopes of rescuing him 
for the next 17 years. He was released in 2014, but was denied exit 
from China when Danielle and her husband attempted to bring him to the 
United States in August 2016.

    Rebiya Kadeer, President, World Uyghur Congress

    Ms. Rebiya Kadeer is a prominent human rights advocate and leader 
of the Uyghur people. She is the mother of 11 children, and a former 
laundress turned millionaire. She spent six years in a Chinese prison 
for standing up to the authoritarian Chinese government. Before her 
arrest in 1999, she was a well-known Uyghur businesswoman and at one 
time among the wealthiest individuals in the People's Republic of 
China. Ms. Kadeer has been actively campaigning for the human rights of 
the Uyghur people since her release from prison in 2005. She has been 
nominated for the Nobel Peace Prize several times since 2006. Despite 
Chinese government efforts to discredit her, Ms. Kadeer remains the 
pro-democracy Uyghur leader and heads the World Uyghur Congress, which 
represents the collective interest of Uyghurs around the world.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
